U.S. Department of the Interior
Office of Inspector General




           AUDIT REPORT


           FOLLOWUP OF
  NEVADA LAND EXCHANGE ACTIVITIES,
    BUREAU OF LAND MANAGEMENT

             REPORT NO. 98-I-689
              SEPTEMBER 1998
                                                                                   W-IN-BLM-00 l-97


               United States Department of the Interior
                                OFFICE OF INSPECTOR GENERAL
                                         Washington, D.C. 20240



                                                                         SEP 3om
                                      AUDIT REPORT

Memorandum

To:        Director, Bureau of Land Management

From:      Robert J. Williams
           Assistant Inspector

Subject: Audit Report on Followup of Nevada Land Exchange Activities, Bureau of Land
         Management (No. 98-I-689)

                                     INTRODUCTION
This report presents the results of our followup review of recommendations contained in our
July 1996 audit report “Nevada Land Exchange Activities, Bureau of Land Management”
(No. 96-I- 1025). The objective of the followup review was to deterrnine whether the Bureau
satisfactorily implemented the recommendations made in our 1996 report and whether any
new recommendations were warranted. We issued a separate advisory report (No. 98-I-363)
in March 1998 on the Del Webb land exchange (“The Del Webb Land Exchange in Nevada,
Bureau of Land Management”).

BACKGROUND

The Bureau of Land Management is responsible for managing and protecting over
260 million’acres of Federal land, of which about 48 million acres are in the State ofNevada.
The Congress has emphasized the use of land exchanges and fee purchases to acquire lands
containing resource values of public significance and to improve the manageability of
Federal land by consolidating its land ownership. The Bureau prefers to acquire land
through land exchanges, which may be initiated by the Bureau or other interested parties
called proponents. ’ In recent years, the Bureau has identified about 70,000 acres of Federal
land for disposal in the Las Vegas Valley of Nevada, which continues to be one of the fastest
growing metropolitan areas in the United States. The potential for real estate development


‘The Bureau prefers to acquire lands through exchanges because of the relatively low impact that exchanges
have on local government tax revenues.
in the private market associated with this growth in the Valley has created significant interest
in acquiring available Federal land.

The Bureau conducts land exchanges under the authority of Section 206 of the Federal Land
Policy and Management Act of 1976 (Public Law 94-579), as amended, which authorizes
the Secretary of the Interior to dispose of Federal land by exchange when the public interest
will be well served. Under Section 206, the values of the lands exchanged must be equal or,
if not equal, must be equalized by a cash payment by either party except in circumstances
where the value of the Federal land transferred by the Government is not more than $150,000
(the value of the Federal land transferred in the exchanges we reviewed exceeded $150,000).

Section 206 specifically directs the Secretary to make the amount of such payments as small
as possible but states that in no event may the value difference between the properties exceed
25 percent of the value of the Federal land exchanged. On August 20, 1988, the Congress
enacted the Federal Land Exchange Facilitation Act of 1988 (Public Law lOO-409), which
granted the Secretary limited authority to approve adjustments in the values of lands
exchanged as a means of compensating a party for incurring costs such as those for land
surveys, mineral examinations, and title searches which would ordinarily be borne by the
other party. In December 1993, the Bureau finalized comprehensive regulations for land
exchanges (43 CFR 2200) to implement the provisions of both Acts.

SCOPE OF AUDIT

The scope of this followup review included an evaluation of actions taken to implement the
five recommendations made in our July 1996 report. The status of the recommendations and
corrective actions is in Appendix 2. To accomplish our objective, we reviewed all
nine exchange transactions completed by the Bureau’s Las Vegas Field Office between
June 1,1995, and August 1,1997. In completing the nine transactions, the Bureau disposed
of 4,306 acres of Federal land in the Las Vegas area, valued at approximately $64.4 million,
and acquired 8,305 acres of private land, valued at approximately $73.6 million.2 We also
reviewed the processing of four other exchanges that were in progress at the Field Office.
The exchanges and transactions included in our review are listed in Appendix 3.

The audit included visits to the Bureau’s Nevada State Office in Reno, Nevada, and its Las
Vegas Field Office in Las Vegas, Nevada. We also visited the offices of Clark and Douglas
Counties and the Tahoe Regional Planning Agency in Nevada to analyze land use
regulations, zoning restrictions, and land use application records in order to identify
development restrictions imposed on exchange lands that may have affected the valuation
of some of the exchanged lands. We also contacted Bureau officials to obtain their views
on specific aspects of the exchanges and to verify or supplement information and data
obtained through our review of the exchange files. In addition, we contacted representatives


‘The difference in land values does not represent a profit to the Bureau. For the most part, the additional value
received by the Bureau was to cover the difference in value from previous transactions in which the same
proponent received land that was more valuable than the land acquired by the Bureau.

                                                        2
of the Department of Agriculture’s U.S. Forest Service and Office of Inspector General
concerning the Deer Creek, Cashman, and Dreyfus/Zephyr Cove exchanges; representatives
of the Clark County Department of Comprehensive Planning and the Tahoe Regional
Planning Agency concerning the Cashman and the Dreyfus/Zephyr Cove exchanges,
respectively; and representatives of the contract appraisal firms responsible for the appraisal
reports associated with the Cashman and the Dreyfus/Zephyr Cove exchanges. Further, we
contacted a representative of the Appraisal Unit of the Department of Justice who was a
coauthor of the 1992 revision of the “Uniform Appraisal Standards for Federal Land
Acquisitions” so that we could enhance our understanding of the principles applicable to the
appraisal of property for Federal acquisition.

This followup review was made in accordance with the “Government Auditing Standards,”
issued by the Comptroller General of the United States. Accordingly, we included such tests
of records and other auditing procedures that were considered necessary under the
circumstances. We also reviewed the Departmental Accountability Report for fiscal year
1996, which includes information required by the Federal Managers’ Financial Integrity Act,
and the Bureau of Land Management’s annual assurance statements for fiscal years 1996 and
1997. Administration and oversight of the Nevada land exchange appraisal process were
identified as a new material weakness in the Bureau’s fiscal year 1997 assurance statement.
Accordingly, we also reviewed the Bureau’s management control evaluation report, which
identified this new material weakness.

PRIOR AUDIT COVERAGE

Our July 1996 audit stated that while the Nevada State Office had acquired some high quality
properties by exchanging lands with private entities (proponents), the Office did not
consistently follow prescribed land exchange regulations or procedures and ensure that fair
and equal value was received in completing three of the four exchanges we reviewed. As a
result, we estimated that the Government may have lost revenues totaling about $4.4 million
in completing the three exchanges. In addition, we found that the Nevada State Office had
acquired about 2,461 acres of land, with an exchange value of $2.7 million, that had no
discernible mission-related purpose.

We recommended that the Director of the Nevada State Office (1) institute competitive
procedures (sale or competitive exchange) into the land disposal process to the maximum
extent practicable; (2) direct that all easements on Federal lands proposed for disposal be
reviewed to verify grantee needs and that actions be taken to remove any easements that are
not needed before the Federal lands are exchanged or sold; and (3) establish the controls
necessary to ensure that land exchanges are processed in full accordance with applicable
laws, regulations, and Bureau procedures. We further recommended that, at a minimum,
these controls ensure that land to be acquired is in conformance with approved land-use plans
or properly executed plan amendments; that land acquired and disposed of is properly
valued; and that all significant decisions involving the exchange transactions, particularly
those affecting land valuation, are fully justified and documented in the exchange file.



                                              3
In addition, the report stated that the Nevada State Office exchanged rather than sold land
within the land sale area designated by the Santini-Burton Act. We therefore concluded that
because of the Nevada State Office’s decision to exchange rather than sell lands within the
designated area, the U.S. Treasury did not receive revenues of $7.8 million for repayment
of incurred costs for acquiring land within the Lake Tahoe Basin. We recommended that the
Director of the Nevada State Office take appropriate actions to ensure that (1) the accounting
reports of income and expenditures required by Section 2(e) of the Santini-Burton Act are
prepared and submitted to Bureau headquarters for submission to the appropriate
Congressional oversight committees and (2) the Nevada State Office uses, except in
compelling circumstances, the land sales process when disposing of its Santini-Burton Act
lands until the sales revenues generated closely approximate the Lake Tahoe Basin
acquisition costs. We further recommended that any future exchange proposals be closely
monitored to ensure that the exchange is justified and that the costs incurred as a result of the
Santini-Burton Act remain relatively nominal.

                               RESULTS OF AUDIT
Of the five recommendations made in our July 1996 report, we found that the Bureau of
Land Management had fully implemented three recommendations (Nos. A.2, B. 1, and B-2),
had partially implemented one recommendation (No. A.l), and had not implemented one
recommendation (No. A.3). Specifically, to implement Recommendation A.2, the Bureau’s
Washington Office issued an instruction memorandum providing new guidance regarding
the removal of encumbrances prior to a public land sale or exchange. To implement
Recommendation B. 1, the Bureau issued an instruction memorandum directing its National
Business Center to provide the required biannual accounting information to the Washington
Office’s Legislative Affairs Group for transmittal to the appropriate Congressional
committees. On April 14,1997, the report was prepared and submitted to the Committee on
Energy and Natural Resources. To implement Recommendation B.2, the Bureau’s
Washington Office obtained legal guidance from the Solicitor, and the Nevada State Office
instructed the Las Vegas Field Office that Santini-Burton Act lands were available for sale
only. On March 4, 1998, the Las Vegas Field Office notified an exchange proponent that
selected Santini-Burton Act land would be excluded from the exchange.

The Bureau partially implemented Recommendation A. 1 by selecting a modified auction
process to provide a viable approach for incorporating competition into the land disposal
process. Since the Bureau had not developed and tested a pilot project using this new
process, we considered the recommendation only partially implemented.

Regarding the unimplemented recommendation, we concluded that the Bureau’s efforts to
establish and follow controls to ensure that Nevada land exchanges are processed in full
accordance with applicable laws, regulations, and procedures were generally unsuccessful
for the exchanges reviewed. Our followup review found that controls associated with the
processing of Nevada land exchanges were not adhered to or consistently complied with by
management, which resulted in significant monetary losses to the Federal Government
because the lands exchanged were not properly valued or were not in conformance with the

                                               4
Bureau’s current land use plan. We also determined that the Bureau’s Land Exchange
Handbook and Instruction Memorandum No. 97-l 13 contained guidance that appeared to
conflict with language in Section 206 of the Federal Land Policy and Management Act or
regulations implementing the requirements of the Act or that weakened the Bureau’s
organizational controls over the appraisal and valuation process for exchanges.

As a result of these inadequate implementation efforts, the Bureau continued to experience
significant monetary losses in its Nevada land exchanges (see Appendix 1). Specifically, we
believe that (1) about $5.9 million was lost on the Deer Creek exchange because the Nevada
State Office did not comply with the established delegation of authority requirements
associated with land valuation; (2) about $12.3 million was lost because the private lands
included in the Cashman and Dreyfus/Zephyr Cove exchanges were not, in our opinion,
appraised in full accordance with the “Uniform Appraisal Standards for Federal Land
Acquisitions”,- and (3) about $3.4 million could have been put to better use if the Bureau had
not acquired three parcels of land that were not in conformance with the current land use plan
and did not have a discernible mission-related purpose. We also noted that the Bureau’s
Washington Office did not follow established standards and controls for appraisals and land
valuations and did not justify or document the propriety of its actions for the Del Webb
exchange.      The Government would have lost $9.1 million based on the initial
“development-based” appraisal of the selected Federal lands had the Bureau not obtained a
second appraisal that was in conformance with the “Standards” because the appraisal was
based on comparable sales.

Because of the recurrence of deficiencies noted in the Bureau’s program and because the
program has not been operated in a manner that protects the interests of the Government, we
believe that the Bureau should identify not only the administration and oversight of the
Nevada land exchange appraisal process but also the entire land exchange program as a
material control weakness in the Departmental Accountability Report. In addition, we
believe that the Bureau should place a temporary moratorium on land exchanges in the State
of Nevada and establish a land exchange review team that includes non-Bureau experts to
provide the Bureau with advice concerning compliance with established laws, regulations,
and procedures for all significant land exchanges.

Prior Audit Report Recommendations

Recommendation A. 1. Institute competitive procedures (sale or competitive exchange) into
the land disposal process to the maximum extent practicable.

In our July 1996 report, we noted that Clark County land records indicated that exchange
proponents were realizing large profits by quickly selling the Las Vegas area lands obtained
in land exchanges with the Nevada State Office. Consequently, we concluded that the
Nevada State Office could maximize the public benefit by introducing competition into the
land disposal process for Las Vegas area lands. The Bureau agreed to implement the
recommendation, stating that it would develop a strategy to incorporate competitive
procedures (competitive sale or exchange) into the land disposal process. The Nevada State

                                              5
Office was to evaluate different competitive approaches and recommend an option for a
prototype competitive land exchange by June 1, 1997. The Bureau stated that, depending
on the results, a pilot project was to be developed and tested.

During our followup review, we found that the Nevada State Office had completed the
evaluation and selected an option that called for a modified auction process to be
implemented, which we believe could provide a viable approach for incorporating
competition into the land disposal process. However, the Bureau had not developed and
tested a pilot project. Accordingly, we consider this recommendation only partially
implemented.

Recommendation A. 2. Direct that all easements on Federal lands proposed for disposal be
reviewed to verif? grantee needs and that actions be taken to remove any easements that are
not needed before Federal lands are exchanged or sold.

In our July 1996 report, we noted that the Government’s best interests were not fully
protected because Bureau management did not adequately verify the need for an easement
on the Federal land prior to exchanging the land with a private entity. In the case presented
in our report, an easement encumbering the Federal land caused it to be appraised at only
$550,000, whereas without the easement, the appraised value would have been 10 times that
amount. We reported that this exchange resulted in a significant loss to the Government and
a windfall gain for the proponent and the City of Las Vegas when the City accepted cash and
other inducements from the proponent as part of an agreement to relinquish the encumbering
easement on a large portion of the property.

In our followup review, we found that the Bureau’s Washington Office issued Instruction
Memorandum No. 97-08 on October 10, 1996, which provided new guidance regarding the
removal of encumbrances before public land was sold or exchanged. The guidance requires
that all rights-of-way, easements, permits, or other encumbrances be reviewed as part of the
case processing procedures and that actions be taken to clear encumbrances which are no
longer needed before the Federal lands are transferred. The guidance also directs field
offices to maintain documentation verifying the need for or release of such encumbrances
in the exchange or sale case files. Based on this guidance, we consider the recommendation
implemented.

Recommendation A. 3. Establish the controls necessary to ensure that land exchanges are
processed in full accordance with applicable laws, regulations, and Bureau procedures.

In our July1996 audit report, we noted that the Nevada State Office did not consistently
follow the prescribed land exchange procedures and regulations and ensure that fair and
equal value was received in completing three of the four exchanges we reviewed. Based on
this conclusion, we further recommended that, at a minimum, sufficient controls be in place
to ensure that land to be acquired is within approved land-use plans or properly executed plan
amendments; that land acquired and disposed of is properly valued; and that all significant
decisions involving the exchange transactions, particularly those affecting land valuation, are


                                               6
fully justified and documented in the exchange file. The Bureau concurred with this
recommendation, stating that its Washington Office would review the Nevada State Office
exchange process to ensure that controls were adequate and that it would finalize a
Bureauwide Land Exchange Handbook.

In our followup review, we found that the Bureau’s Washington Office completed the control
review and finalized a new Handbook. However, in our opinion, the Bureau’s conclusions
and its reported improvements for the processing of exchanges were not substantiated by
documentation in the exchange files or evidence gathered during our review. We also found
that the Bureau’s new Handbook contained guidance on appraisal reviews and dispute
resolutions which appeared to be in conflict with language in the applicable laws or
implementing regulations or which would weaken the Bureau’s organizational controls over
the critically important appraisal and valuation process. In addition to the agreed-upon
corrective actions, the Bureau performed an alternative management control review of the
appraisal process between March and May 1997 that focused on Nevada land exchange
appraisals. Based on the results of this review, the Bureau identified the administration and
oversight of the Nevada land exchange appraisal process as a material weakness. However,
in our opinion, this review did not adequately address the significant appraisal problems
identified by our review of the Bureau’s most recent Las Vegas area land exchanges.
Accordingly, as discussed in the paragraphs that follow, we consider the recommendation
unimplemented.

       Bureau Technical Procedures Review. InNovember 1996, the Bureau’s Washington
Office formed a review team to perform a “technical procedures review” of “case file
processing” for the Nevada land exchange program. The review team consisted of three
employees, none of whom were qualified appraisers, selected from different Bureau offices.
Two members of the technical procedures review team told us during our followup review
that they had requested the Bureau to include an appraiser on the team to address appraisal
and valuation issues. However, the members said that the Washington Office did not honor
their request and that Washington Office personnel told them to consult instead with the
Washington Office appraiser.

The team was directed to review the Nevada land exchange program and provide assurance
that the Nevada State Office processed land exchanges in accordance with applicable laws
and regulations and Bureau procedures. In accomplishing this work, the review team
selected and reviewed six exchanges processed by the Las Vegas Field Office and four
exchanges processed by the Elko District Office. The Las Vegas exchanges consisted of two
completed exchanges (Cashman and the first part ofDreyms/Zephyr Cove) and four ongoing
exchanges (Del Webb, Permabilt/American Land Conservancy, Falcon Point, and Volkmar).

On February 3, 1997, the Bureau provided the Office of Inspector General with its final
response regarding Recommendation A.3 of the July 1996 audit report3 The response stated


‘The response memorandum was processed through the Assistant Secretary for Land and Minerals
Management and was signed by the former Deputy Director for the Director, Bureau of Land Management.

                                                 7
that the review team had completed its work and had “found that there are sufficient
guidance and controls in Nevada District offices and the State Office to conduct exchanges”
and that the Bureau was “confident that the case work being conducted today follows written
guidance and the files are being well documented.”

Based on our followup review of the same exchanges, we found that the applicable laws,
regulations, and Bureau policies and procedures were not adhered to consistently and that
significant decisions to deviate from procedural requirements, which affected land
valuations, were not fully justified and documented in the exchange files. Moreover, we
noted instances in which, in our opinion, acquired lands were not valued in accordance with
recognized standards. Specifically, for the transactions analyzed by the Bureau’s review
team, we noted the following:

       - Substantive deficiencies existed relating to the appraisal and valuation of the private
lands for both the Cashman and Dreyfus/Zephyr Cove exchanges, although the review team
reported that “lands acquired and disposed of by exchange are valued in accordance with
approved standards” and that “the appraisal reports reviewed by the TPR Team [review team]
were prepared in accordance with the regulations and the Uniform Appraisal Standards for
Federal Land Acquisitions.” In particular, we found that the private lands were not valued
on the basis of their “as is” condition and existing development potential. Instead, the
appraisals valued these lands based on the appraisers’ assertions that it was likely that use
permits could be obtained or that land use restrictions could be overcome to allow the
property to be developed with a more profitable “highest and best use.” However, we
concluded that these assertions were not substantiated by credible evidence, as required by
the “Standards.” As a result of the acceptance of the unsubstantiated assertions, we believe
that the lands acquired in these two exchanges were substantially overvalued and that the
Government lost about $12.3 million on these exchanges.

Specifically, we found that the appraised value of the Cashman property was based on the
appraiser’s assertion that it was “legal and likely” that Clark County would approve a use
permit for a 650-lot subdivision on a portion of the property, but comments of a Clark
County planning official were the only support for this assertion. However, based on our


‘The “Standards” states that (1) a property must be valued based on its highest and best use but that the
proposed highest and best use “cannot be predicated upon potential uses that are speculative and conjectural”
(Standard No. A-3); (2) a more profitable use that is precluded by existing zoning restrictions or regulations
should not be considered unless the appraiser demonstrates that there is a reasonable possibility that zoning
would be changed or permits would be issued by the regulating authority (Standard No. A-23); (3) before it
can be concluded that any use of the property is its highest and best use, that use must be “physically possible,
legally permissible, financially feasible, and must result in the highest value” (Standard No. B-l. 14); (4) the
appraiser must investigate, analyze, and discuss the probability of obtaining a rezone of the property or the
issuance of a permit by which he concludes that it is appropriate to employ a more profitable highest and best
use (Standard No. B-l. 14); and (5) typical methods of investigating the probability of a rezone or permit
issuance include interviews with zoning administrators and members of the legislative body that make final
zoning decisions, a review of rezoning activity of nearby property, determining neighborhood attitudes
concerning rezoning and permit issuance, and analyzing provisions of land use planning documents (Standard
No. B-3).

                                                       8
review of Clark County’s land use plan for the area and other documentation and on our
discussions with the Nevada State Water Engineer, we found that a 650-lot subdivision could
not be built on the Cashman property because the water supply required to serve such a
development was unavailable. Further, we found that the Clark County Board of
Commissioners denied a use permit for a smaller 243-lot subdivision on the nearby Deer
Creek property in June 1995, based in part on concern about the availability of water.6 Thus,
we concluded that there was no credible evidence to support the assertion that a use permit
allowing development of a 650-lot subdivision on the Cashman property could be obtained
from Clark County, as required by the “Uniform Appraisal Standards for Federal Land
Acquisitions.” Because the Bureau accepted this unsubstantiated assertion, the approved
exchange value of the private land was $8.5 million, which was $2.5 million more than the
amount initially approved by a Government appraisal review team.

We also found that the appraisals of the Dreyfus/Zephyr Cove property were based on the
appraiser’s assertion that the Tahoe Regional Planning Agency would allow the existing
single parcel of land to be subdivided into five separate parcels and sold as separate lots, but
the only support for this assertion was a letter from the Tahoe Regional Planning Agency’s
legal counsel. However, based on our review of the Tahoe Regional Planning Agency’s
ordinances, land use plans, and planning records and on our discussions with the Agency’s
legal counsel, we concluded that such a subdivision of land was not permissible under the
Agency’s Code.’ Further, from our review of Tahoe Regional Planning Agency records and
our discussions with the proponent’s appraiser and consultant, we found no documentation
supporting that the Agency had approved any such residential subdivisions. Therefore, we
concluded that the asserted development potential of the Dreyfus/Zephyr Cove property was
not substantiated by credible evidence, as required by the “Standards.” Because the Bureau
accepted this unsubstantiated assertion, the approved exchange value of the portion of the




‘Our review of documents that governed and restricted development of the Cashman property included Clark
County’s Mt. Charleston Comprehensive Land Use Plan: Clark County Ordinance 1402 (dated July 2 1. 1992);
Title 28 of the Clark County Code (“Subdivisions”); the Nevada State Engineer’s Amended Order No. 1054;
and the Nevada State Engineer’s February 4, 1993, letter to the Clark County Department of Comprehensive
Planning.

‘The owner of the Deer Creek property challenged the denial of the Board of County Commissioners of its
application for a use permit in the District Court of Nevada. The County successfully argued that the Board’s
decision was consistent with the Mt. Charleston Comprehensive Land Use Plan, and on October 12, 1995. the
District Court affrrrned the Board’s denial of a use permit for the Deer Creek property.

‘The Agency’s legal counsel told us that subdividing any land within the Tahoe Basin for the purpose of selling
the resultant lots for residential development is not permissible under the Agency’s Code, and we verified that
the Agency’s restriction on residential subdivisions had been in place since at least 1987. The Agency’s legal
counsel stated that she used “poor wording” to describe the development potential of the Dreyfus/Zephyr Cove
property in her July 18, 1996, letter.

                                                      9
private property acquired by the Bureau was $37.8 million, which was $9.8 million more
than the $28 million price the exchange proponent paid for the entire property?

      - For the Del Webb exchange, we found that the Bureau’s Washington Office did not
fully conform to established standards, procedures, and controls for appraisals and land
valuations and did not justify or document the propriety of its actions. Our findings relative
to the Bureau’s processing of this exchange were discussed in detail in our March 1998
report on the Del Webb land exchange. Generally, we concluded that the Bureau’s
Washington Office (1) allowed Del Webb to use an appraiser that was not preapproved by
the Nevada State Office, which was not in accordance with established State of Nevada
procedures and practices; (2) allowed the Del Webb appraiser to perform a
development-based appraisal of the selected Federal land, which was not in accordance with
the “Standards,” which required that comparable sales be relied on when adequate sales data
were available; and (3) relieved the Nevada State Chief Appraiser of his appraisal review
responsibilities for this exchange, which was contrary to the Statewide procedures and
guidance in the Bureau Manual. In addition, the Bureau issued a contract for an appraisal
review to a firm nominated by Del Webb. As a result, if the Bureau had not obtained a
second appraisal, the Government would have lost $9.1 million on the Federal land selected
for exchange because the development approach was used in the initial appraisal.

The State Chief Appraiser said that he believed extensive reliance on the development
approach was not appropriate for this exchange because the “Standards” states a clear
preference for the use of comparable sales when adequate sales data are available. According
to Section A-8 of the “Standards,” the development approach should not be used when
comparable sales are available because the development approach is “highly speculative,
prone to error, and reflects not so much value as the highest price a developer can afford to
pay and still earn the desired profit.” The State Chief Appraiser said that he deemed the
development approach to be inappropriate because he believed that comparable sales were
available for use in valuing the property. The State Chief Appraiser’s position in this matter
was subsequently validated by a second appraisal firm, contracted for by the Bureau, which
also determined that the comparable sales approach should be relied on for estimating the
value of the selected Federal land. The second appraisal report commissioned by the Bureau
valued the Federal land at $52.1 million, which was significantly higher than the $43 million
value determined by the appraisal firm hired by the proponent. Given these circumstances,
we believe that the Government would have lost $9.1 million had the second appraisal not
been obtained.

     - On April 25, 1997, the Las Vegas Field Office acquired three parcels of land within
the Las Vegas urban area for $3.4 million as part of the Dreyfus/Zephyr Cove exchange.
However, we believe that the decision to acquire these lands was not in compliance with the
Code (43 CFR 2200.0-6(g)), which states, “The authorized officer shall consider only those


*The proponent purchased the entire Dreyfus/Zephyr Cove property for $28 million in July 1996 for purposes
of exchange. The Bureau acquired the land only for $37.8 million in a two-phased exchange in October 1996
and April 1997.

                                                    10
exchange proposals that are in conformance with land use plans or plan amendments.” The
Bureau’s notice of decision for this exchange stated that the lands to be acquired “have high
value for wildlife habitat and public recreation.” However, we found that these parcels were
located between existing residential subdivisions and Federally owned land that was
identified for disposal in the Bureau’s pertinent land use plan for the area, the Clark County
Management Framework Plan, dated 1984. Regarding the Federally owned land identified
for disposal, the Plan stated, “The lands are not identified as needed for any Federal
program. . . . The problems of illegal occupancy, dumping, and other trespass are rampant,
and would be eliminated by disposal. Retention of these lands puts the Bureau in the de
facto position of being an urban planning agency, for which it is ill equipped.”
Consequently, we concluded that there was no discernible mission-related purpose
documented to reasonably support the acquisition of the adjacent parcels of land.

       - The Nevada State Office allowed a U.S. Forest Service regional appraiser to review
the appraisal report and to approve the land values for the private property included in the
first Dreyfus/Zephyr Cove exchange transaction, an action that was contrary to requirements
contained in the Bureau Manual. Specifically, Section 1203, Appendix 1, of the Manual,
which was in effect at the time of the review, limited the delegation of authority for
reviewing and approving exchange values to the “State Chief Appraiser only.” This action
was also contrary to the Bureau review team’s finding that “the delegated official [State
Chief Appraiser] reviews each appraisal report and approves the value.” A member of the
Bureau’s review team said that the team initially concluded that land exchange values could
be approved only by the State Chief Appraiser or the State Director but that the issue was not
included in the final technical procedures report based on consultations with the Bureau’s
Washington Office appraiser, who also assisted in writing the team’s report.

We also noted that a private citizen protested this exchange partially because he questioned
the Bureau’s authority to redelegate its appraisal review and approval authority to the U.S.
Forest Service. This protest was dismissed by the Assistant Secretary for Land and Minerals
Management in an October 7, 1996, dismissal notice, which stated that the Bureau’s
exchange regulations “only require that an appraisal report be reviewed by a qualified
appraiser” and that “regulations were followed in assigning responsibility for appraisal
review of the offered lands to the Forest Service Review Appraiser.” The dismissal notice
further stated that the Assistant Secretary’s office “analyzed [the] protest to this exchange,
and have determined that BLM [Bureau of Land Management] regulations and procedures
were followed in processing this transaction.” However, we found that Bureau procedures
delineated in Section 1203 of the Bureau Manual restricted appraisal review and approval
authority to the State Chief Appraiser only.

      - The Las Vegas Field Office issued notices of decision to proceed with the Del Webb,
Dreyfus/Zephyr Cove, and Permabilt/American Land Conservancy exchanges before all of
the land appraisals and other required analyses were completed, which was contrary to




                                              11
requirements ofthe Code ofFederal Regulations (43 CFR 2201).9 The Bureau’s review team
did not identify this area of noncompliance in its review report but instead stated that “[lland
exchanges in Nevada are processed in full accordance with applicable laws, regulations, and
BLM [Bureau of Land Management] procedures.”

On February 11, 1997, after the notices of decision and the review team’s report were issued,
the Bureau issued Instruction Memorandum No. 97-74, which reaffirmed that the Bureau’s
policy and regulations required appraisals and all other documentation to be completed
before a notice of decision was issued and to be available for public inspection during the
subsequent comment period. However, we found that the Las Vegas Field Office did not
fully comply with this instruction.         While the notices for the Del Webb and
Permabilt/American Land Conservancy exchanges were reissued after appraisals and other
required documents were completed and approved, the second phase of the Dreyms/Zephyr
Cove exchange was completed on April 25, 1997, without a new notice of decision and
opportunity for public review. We believe that the Field Office’s continued noncompliance
with Bureau regulations and Instruction Memorandum No. 97-74 was significant because
new offered land was added to the second phase of the exchange and appraisals were
completed and approved subsequent to the issuance of the first notice on May 20, 1996.
Because the regulations and the instruction were not properly followed, the Field Office’s
determination that the proposed exchange was in the public interest was not properly
substantiated at the time the exchange was announced, and the public did not have the full
opportunity to review and analyze relevant exchange data, which, in our opinion, may have
adversely impacted the public’s ability to prepare meaningful protests within the 45-day
period established in the governing regulations (43 CFR 2201.7-l(b)).

Regarding the Deer Creek exchange, which the review team did not analyze, we noted that
a significant value dispute existed between the exchange proponent (the American Land
Conservancy) and the Government’s appraisal review team.” Specifically, the proponent
wanted more than $12 million for the private land, whereas the review team established an
approved value of about $4.6 million for the property. The State Director’s authority to
conduct bargaining over the disputed appraised value was subsequently redelegated to
U.S. Forest Service officials. The Bureau Manual (Section 1203, Appendix 1, page 54)
states that the Secretary’s authority to “approve all actions, subject to the title opinion of the
Field or Regional Solicitor, in all matters relating to the exchange of lands” is delegated to
the State Director. In addition, our Office of General Counsel said that (1) delegations to
outside entities are permissible only “where the agency retains and exercises its power to
review and make the ultimate decisions with respect to the findings or conclusions of the



‘The Code (43 CFR 2201.7-1(a)) states that a decision to approve an exchange is required to be made “upon
completion of all environmental analyses and appropriate documentation, appraisals, and all other supporting
studies and requirements to determine if a proposed exchange is in the public interest and in compliance with
applicable law and regulations.”

“The review team consisted of the Bureau’s Nevada and Arizona Chief Appraisers and the U.S. Forest
Service’s Intermountain Region Chief Review Appraiser.

                                                     12
outside entity” and (2) “the delegation will be deemed improper if the agency simply
‘rubberstamps’ the work product of the outside entity.”

In reviewing the exchange file and discussing the redelegation and bargaining with Nevada
State Office officials, we found that the Bureau provided only a cursory review of the
conclusions reached by Forest Service officials before accepting these conclusions and
proceeding with the exchange. For example, despite the fact that the appraisals valued the
land using the development approach and that the Forest Service’s negotiations revolved
around several disputed financial and economic factors used by the appraisers and appraisal
reviewers under this approach, we found that the Nevada State Office did not have the Forest
Service bargaining team’s conclusions reviewed by the State Chief Appraiser or any other
Government appraiser. In addition, we noted that the Nevada State Office accepted title to
the property on March 19,1996, only 1 day after the Forest Service provided the Bureau with
a copy of its bargaining agreement,” thus limiting the possibility of an adequate and
effective review by the State Chief Appraiser and State Office management. Finally, we
found that both of these actions were consistent with verbal agreements between the Bureau
and the Forest Service as described in the bargaining agreement, which stated, “It was the
understanding of both agencies that the FS [Forest Service] would represent the Federal
Government in the dispute resolution and in completing the remaining work associated with
this transaction.” As such, we concluded that the Bureau did not provide an adequate and
effective review of the Forest Service’s negotiation documentation and appraisal review.
Consequently, we believe that the redelegation to the U.S. Forest Service without adequate
and effective review by the Bureau was an improper action that resulted in a significant loss
to the Government because the proponent subsequently received $10.5 million for the
acquired lands, which was about $5.9 million more than the $4.6 million value determined
to be appropriate by the Government’s appraisal review teamI The redelegation of Bureau
authorities and responsibilities to outside entities is discussed further in the paragraphs that
follow.

        Land Exchange Handbook. On August 14, 1997, the Bureau issued its Land
Exchange Handbook (Bureau of Land Management Manual Handbook H-2200-1, Release
No. g/4/97), which provided detailed information regarding the land exchange process.
However, we noted that this document included certain procedural changes related to
appraisal reviews and dispute resolutions which, in our opinion, weaken controls over a
critical aspect of the exchange process and appear to be inconsistent with the requirements
of the Federal Land Policy Management Act of 1976 or applicable regulations (43 CFR
2200) as follows:


“The Forest Service’s bargaining agreement described the bargaining process used, the principal appraisal
issues addressed in negotiations, and the manner in which these issues were resolved to arrive at an exchange
value acceptable to both the exchange proponent and Forest Service officials.

“The U.S. Forest Service’s involvement in the Deer Creek exchange is included in the August 1998 audit
report “Forest Service, Humboldt-Toiyabe National Forest, Land Adjustment Program, Fiscal Years 1990 to
1997, Sparks, Nevada” (No. 08003-02-SF), issued by the U.S. Department of Agriculture’s Office of Inspector
General.

                                                     13
        - Appraisal Review. Before April 2 1, 1997, the Bureau Manual limited delegated
authority for reviewing and approving land exchange values to the “State Chief Appraiser
only.” Based on our analyses of the exchange process, we considered this limitation on
appraisal review and approval authority to be the most critical organizational control
instituted by the Bureau to ensure compliance with the legal requirement (the Federal Land
Policy and Management Act of 1976) that exchanges must be for equal value. However, the
Bureau’s Washington Office issued Instruction Memorandum No. 97-l 13,13 which amended
the Bureau Manual to allow “other qualified federal review appraisers,” including those
working for agencies outside the Department of the Interior, to perform the critical appraisal
review and approval function. The revised delegation of authority was subsequently
expanded and made permanent in Chapter 7 of the Handbook, which states that a “BLM
[Bureau of Land Management] staff appraiser, a qualified reviewer from another Federal
agency, or a contract review appraiser” can review appraisals and approve market values.
(Emphasis added.) Thus, the Handbook guidance allows Bureau officials to proceed with
an exchange based on appraised land values determined entirely by non-Bureau appraisers
without the appraisal having been reviewed and approved by a Bureau appraiser, such as the
State Chief Appraiser.

According to the Instruction Memorandum, the Bureau’s intent in revising the delegation of
authority for reviewing appraisals and approving exchange values was to allow the sharing
of agencies’ scarce appraisal resources while retaining final decision making by the Bureau.
In support of this, the Handbook states that “the decision to accept the [appraisal] review or
approve the appraised value is a BLM [Bureau of Land Management] decision that cannot
be delegated outside the agency.” However, we concluded that this control would not be
effective because the state directors or field office managers authorized to make the final
decisions are not likely to be trained and qualified appraisers. In our opinion, Bureau
decisions concerning the acceptability of appraisals and exchange values should be made
based only on the advice of Bureau appraisers who, by virtue of their position, are expected
to have an interest in ensuring compliance with the Federal Land Policy and Management
Act’s requirement for fair and equal value exchanges and the professional education,
training, and experience necessary to determine when an appraised value satisfies this
requirement.

We believe that the changes in delegated authority implemented through the Handbook
significantly weaken the Bureau’s controls over the valuation process. Moreover, given the
recurrence of the deficiencies in the Bureau’s exchange program disclosed by our audits, we
believe that the Bureau should be implementing more management controls rather than
instituting changes that result in the lessening of critical existing controls. Accordingly, we
believe that the Handbook and Memorandum No. 97- 113 should be revised to ensure that
any appraisal review reports submitted by individuals not employed by the Bureau are
reviewed and approved by the State Chief Appraiser.


“Instruction Memorandum No. 97- 113, “Roles and Responsibilities Regarding Value Determination for
Bureau of Land Management (BLM) Land Exchanges,” was signed by the former Deputy Director and expires
on September 30, 1998.

                                                 14
        - Dispute Resolution. Chapter 8 of the Handbook allows exchange parties to use
bargaining or other processes “in place of an appraisal” to resolve value disputes. The
chapter further states that the other processes can “include discussion of factors or elements
that are outside the normal appraisal process,” including subjective factors such as the
“consideration ofpublic benefits that result from the transaction.” However, these statements
appear to be contrary to the Federal Land Policy and Management Act. The Act and its
implementing regulations require that bargaining and other processes be used only to
reconcile differences in appraisal values rather than as substitutes for appraisal. The Act
(43 U.S.C. 1716(d)) contemplates the use of other processes to resolve value disputes only
after an appraisal has been completed, providing that the parties submit the appraisal to
arbitration or “[iInstead of submitting the appraisal to an arbitrator . . . the Secretary
concerned and the other party or parties involved in an exchange may mutually agree to
employ a process of bargaining or some other process to determine the values of the
properties involved in the exchange.” Bureau regulations (43 CFR 2201.4(a)( 1)) also make
clear that the use of bargaining or other processes is not to be used in lieu of an appraisal but
rather “shall contain a reference to all relevant appraisal information and state how the parties
reconciled or compromised appraisal information to arrive at an agreement based on market
value.”

Neither the Bureau official responsible for finalizing the Handbook nor the Bureau’s
Washington Office appraiser could identify a legislative or regulatory authority that would
support the use of another process “in place” of an appraisal. Accordingly, we believe that
the Bureau should revise its Handbook to make it consistent with the requirements of the
enabling legislation and the exchange regulations.

Recommendation B. 1. The accounting reports of income and expenditures required by
Section 2(e) of the Santini-Burton Act are prepared and submitted to Bureau headquarters
for submission to the appropriate Congressional oversight committees.

Our July 1996 report stated that Bureau officials were unable to provide us with accounting
reports of income and expenditures which were required by Section 2(e) of the
Santini-Burton Act. The Bureau agreed with this recommendation, and on September 10,
1996, the Bureau’s Washington Office issued Instruction Memorandum No. 96-l 79, which
directed its National Business Center to provide the required biannual accounting
information to the Washington Office’s Legislative Affairs Group for transmittal to the
appropriate Congressional committees. On September 23, 1996, the Washington Office
amended the instruction to clarify that the accounting information should include cumulative
Bureau receipts and U.S. Forest Service expenditures since the passage ofthe Santini-Burton
Act. On April 14, 1997, the Assistant Secretary for Land and Minerals Management
submitted the first such accounting reports to the Committee on Energy and Natural
Resources. Accordingly, we consider the recommendation implemented.

Recommendation B. 2. The Nevada State Office uses the land sales process, except in
compelling circumstances. when disposing of its Santini-Burton Act lands until the sales
revenues generated closely approximate the Lake Tahoe Basin acquisition costs. Any


                                               15
exchange proposals from that time should be closely monitored to ensure that the exchange
is justified and that the costs incurred as a result of the Santini-Burton Act remain relativelv
nominal.

Our July 1996 report stated that the Nevada State Office exchanged rather than sold land
within the sale area designated by the Santini-Burton Act. We concluded that this decision
deprived the U.S. Treasury of $7.8 million in revenues for repayment of incurred costs for
acquiring land within the Lake Tahoe Basin. Before responding to this recommendation, the
Bureau alternatively proposed to obtain legal guidance from the Office of the Solicitor
regarding the disposal of Santini-Burton lands. We concurred with this approach, and the
Bureau received the legal guidance in June 1997. The Solicitor stated that while the Bureau
has the authority to dispose of land in the Santini-Burton area under other laws, the Santini-
Burton legislation expressed a “strong preference for disposal by sale.” The Solicitor
therefore advised the Bureau to dispose of lands in the Santini-Burton area by other than sale
“only when doing so would not frustrate the Act’s purposes.” To ensure that the Bureau
complied with this legislation, the Solicitor further advised the Bureau that it should “set
forth in writing, as part of its decision-making documentation on non-sale disposals in the
Santini-Burton area, persuasive reasons why the sale method is not being used.”

On August 8,1997, the Nevada State Director issued guidance to the Las Vegas Field Office
that public land within the boundary established by the Santini-Burton Act would be
available for sale only, utilizing competitive procedures, and that any exceptions to this
policy would require written concurrence of the State Director. Only one of the exchanges
actively being processed by the Las Vegas Field Office, the Volkmar exchange, sought to
acquire Santini-Burton Act land. After we provided the preliminary draft of our report to the
Bureau in February 1998, the Las Vegas Field Office notified the Volkmar exchange
proponent on March 4, 1998, that the Santini-Burton Act land selected would be excluded
from the exchange. Accordingly, we consider the recommendation implemented.

Recommendations

We recommend that the Director, Bureau of Land Management:

      1. Identify the Bureau’s entire land exchange program as a material weakness in the
Departmental Accountability Report.

       2. Establish a “land exchange review team” which includes representatives who are
non-Bureau personnel. This team should provide advice concerning compliance with
established laws, regulations, and procedures for all significant land exchanges before lands
are acquired or disposed of through an exchange. Also, team members should possess the
technical skills and proficiency, including a thorough knowledge of the appraisal process and
the applicable appraisal standards, required to conduct an effective review of proposed
exchanges.




                                              16
      3. Establish a moratorium on land exchanges in the State of Nevada pending
establishment of the independent land exchange review team identified in
Recommendation 2.

      4. Ensure that appraisals are supported by credible evidence, as required by the
“Uniform Appraisal Standards for Federal Land Acquisitions,” when the appraised value is
based on an assertion that the property’s highest and best use is different from its current
zoning or use.

       5. Revise the Land Exchange Handbook and Instruction Memorandum 97-l 13 to
ensure that all appraisal reports used in a land exchange are reviewed and approved by the
State Chief Appraiser and to ensure that the described procedures for dispute resolution are
consistent with the requirements of the Federal Land Policy and Management Act of 1976
and the Code of Federal Regulations (43 CFR 2200).

Bureau of Land Management Response and Office of Inspector General
Reply
In the June 29, 1998, response (Appendix 5) to the draft report from the Director, Bureau of
Land Management, the Bureau concurred with Recommendations 1 and 4, nonconcurred
with Recommendations 3 and 5, and neither concurred nor nonconcurred with
Recommendation 2. Also, the draft report was discussed in July 13 and 15 meetings between
the Bureau and the Office of Inspector General. On July 24, 1998, the Bureau provided a
supplemental response (Appendix 4), in which it concurred with Recommendations 1,2,4,
and 5 and nonconcurred with Recommendation 3. Based on the responses, we consider
Recommendations 1, 4, and 5 resolved but not implemented.                 Accordingly, the
unimplemented recommendations will be forwarded to the Assistant Secretary for Policy,
Management and Budget for tracking of implementation. Also based on the responses, we
request that the Bureau provide additional information for Recommendation 2 and reconsider
its response to Recommendation 3, which is unresolved (see Appendix 6).

Recommendation 1. Concurrence.

       Bureau of Land Management Response. In its July response, the Bureau said that
it would “identify the land exchange program as a material weakness” in the Departmental
Accountability Report. The July response identified the Assistant Director, Minerals, Realty,
and Resource Protection, as the official responsible for implementation and September 30,
1998, as the target date for submittal of the plan required by the Accountability Report.

       Office of Inspector General Reply. Based on the Bureau’s response, we consider
the recommendation resolved but not implemented.

Recommendation 2. Concurrence.




                                             17
        Bureau of Land Management Response. In its June response, the Bureau said that
it had “taken actions to improve the land exchange program,” but it did not make a specific
commitment on the establishment of a land exchange review team and the possible roles,
responsibilities, or organization of such a review team. In the July response, the Bureau
stated that it had “prepared and submitted to the Department for review a proposal to
establish a National Land Exchange Evaluation and Assistance Team” to review land
exchange actions and decisions and that the Bureau would proceed with implementation of
the Team upon concurrence of the Department. However, the Bureau also stated that its
proposal “does not include non-Bureau representatives as members of the Team” because
such a proposal “would create potentially troubling issues regarding compliance with the
Federal Advisory Committee Act (FACA), Departmental delegations . . . , appropriate
handling of confidential information, and other issues that might arise if the BLM [Bureau
of Land Management] used non-federal personnel for performing functional responsibilities
in the land exchange process.” The Bureau further stated that it will “continue to evaluate
options to consider other means of increasing objective input in the review of land
exchanges,” such as “participation by the FACA chartered Resource Advisory Councils in
the review of land exchange actions, or other federal agency representation on land exchange
program evaluation teams.” Further, the Bureau announced the formation of the Team in an
August 14, 1998, press release.

        Office of Inspector General Reply. Although the Bureau concurred with our
recommendation, it did not commit to include independent representation on the National
Land Exchange Team. Regarding the Bureau’s comments on the use of “non-federal
personnel” on the Team, it should be noted that we did not suggest the use of “non-federal
personnel.” Further, at our July 13, 1998, meeting with the Director, we suggested that one
method for ensuring the independence of the Bureau’s National Land Exchange Review
Team would be to include Team members who are employees of other Departmental bureaus
or other Federal agencies or departments that do not benefit from the land exchange. We
believe that inclusion of non-Bureau representation on the National Land Exchange Team
is the most viable method for the Bureau to obtain consistent and unbiased advice on land
exchanges. In regard to the Federal Advisory Committee Act, the Office of Inspector
General’s General Counsel advised that the Act would not be applicable provided that the
Team was composed exclusively of Federal employees. The Act (5 U.S.C., App. 2,
section 3) states that the term “advisory committee” excludes “any committee which is
composed wholly of full-time officers or employees of the Federal Government.”
Accordingly, we believe that the Bureau should obtain written advice from the Office of the
Solicitor regarding any legal limitations on the participation of non-Federal personnel on the
National Land Exchange Team.

We also believe that the Bureau’s suggested use of Resource Advisory Councils to review
land exchange actions could help ensure that land exchanges are consistent with existing land
use plans. However, the most significant land exchange problem identified by our followup
audit was that lands exchanged were not properly valued in accordance with approved
standards (see discussion of the Cashman, Dreyfus/Zephyr Cove, and Del Webb exchanges
on pages 8 to 10 of the report). Accordingly, in order for the Resource Advisory Councils


                                             18
to be a viable option as an independent reviewer of land exchange actions, membership of
the Councils must include individuals who “possess the technical skills and proficiency,
including a thorough knowledge of the appraisal process and the applicable appraisal
standards, required to conduct an effective review of proposed exchanges.” In addition, the
Bureau raised concerns about the use of non-Federal personnel regarding compliance with
Departmental delegations, handling of confidential information, and other issues.

Our insistence on the need for an independent review of land exchange actions is based on
the Bureau’s continuing inability to ensure that exchanges are accomplished in accordance
with prescribed regulations and procedures. Specifically, in our July 1996 audit report
“Nevada Land Exchange Activities, Bureau of Land Management,” we found that the
Nevada Office did not consistently follow prescribed land exchange regulations or
procedures and ensure that fair and equal value was received in completing three of the four
exchanges we reviewed. In response to the audit, the Bureau stated that its Washington
Office would “review the Nevada BLM [Bureau of Land Management] exchange process to
assure that adequate controls are in place to comply with applicable laws, regulations and
BLM procedures.” After completing its review of Nevada land exchange procedures, the
Bureau’s Washington Office reported that “there are sufficient guidance and controls in the
Nevada District offices and the State Office to conduct exchanges” and that the Bureau was
“confident that the case work being conducted today follows written guidance and the files
are being well documented.” However, as discussed in our report (pages 6 through 13), we
found that the Bureau had not identified significant deficiencies in the processing of Nevada
land exchanges that were the subject of the technical procedures review performed by the
Bureau’s Washington Office. These deficiencies resulted in an $18.2 million loss to the
Federal Government and the acquisition of $3.4 million of land that was not in conformance
with the current land use plan. Further, as discussed in our advisory report on the Del Webb
land exchange, we found that the Bureau’s Washington Office did not follow established
standards, procedures, and controls for appraisals and land valuations and did not justify or
document the propriety of its actions, which almost resulted in another $9.1 million loss to
the Federal Government. Accordingly, we believe that there is a need for independent
representation on the Bureau’s National Land Exchange Review Team for us to consider the
recommendation fully resolved. In that regard, we request the following information: (1) the
Team’s charter showing the specific authorities and responsibilities given to the Team,
including information on the criteria by which the Bureau will determine which exchanges
will be referred to the Team for review, and (2) the membership of the Team, including
information on the qualifications of non-Bureau members.

Recommendation 3. Nonconcurrence.

       Bureau of Land Management Response. ln its June response, the Bureau disagreed
with the recommendation for a full moratorium but stated that it would continue the existing
limited moratorium on new exchanges in the Las Vegas area. In the July response, the
Bureau stated that it “does not agree to a moratorium on land exchanges in Nevada.
However, BLM [Bureau of Land Management] does not plan on processing additional land
exchanges in the Las Vegas area until the existing priority exchanges are substantially


                                             19
completed and the National Land Exchange Evaluation and Assistance Team, as identified
above [Recommendation No. 21, is approved by the Department and established and
available to assist the BLM Nevada State Director.” The Bureau also stated that existing
priority exchanges would be processed subject to recently established review procedures and
that no additional lands would be acquired in the Las Vegas area unless they were consistent
with the final Las Vegas Resource Management Plan expected to be effective in October
1998.

        Office of Inspector General Reply. We acknowledge the reported actions taken as
efforts to improve management oversight of land exchange activities and the appraisal
process. However, we believe that a temporary moratorium on Nevada land exchanges,
including any expansion of existing exchanges, is needed to ensure that no additional
monetary losses occur prior to an independent land exchange review team being established
to review such exchanges. As discussed in the report (pages 6 through 13) and in our reply
to the Bureau’s response to Recommendation 2, previous reviews of Nevada land exchanges
by the Bureau’s Washington Office had not disclosed significant processing deficiencies that
we found resulted in significant financial losses to the Federal Government. Further, the
Bureau could amend the existing exchange agreements to add millions of dollars of
additional offered and selected lands that were not part of the exchanges when the Bureau
announced its partial moratorium on July 19, 1996. If the existing agreements are amended,
the risk of additional losses could increase. Also, the length of the moratorium is within the
Bureau’s control. The establishment and the empowerment of the Review Team identified
in Recommendation 2 satisfy the conditions that led us to recommend a moratorium.
Therefore, we request that the Bureau reconsider its response to the recommendation.

Recommendation 4. Concurrence.

       Bureau of Land Management Response. In its June and July responses, the Bureau
concurred with the recommendation, stating in the June response that it “will coordinate
development of an appraisal course to be presented to BLM [Bureau of Land Management]
appraisers, contract appraisers, and other agency appraisers involved in land exchange
appraisals. The course will be developed and presented by the Appraisal Institute and the
American Society of Farm Managers and Rural Appraisers. The course will focus on highest
and best use, how to document ‘reasonable probability,’ and improving the effectiveness of
the appraisal review function.” The Bureau also stated that its Washington Office would
conduct followup reviews of the appraisal function during fiscal year 1999. The July
response identified the Assistant Director, Minerals, Realty, and Resource Protection, as the
official responsible for implementation and June 1, 1999, as the target date for
implementation.

       Office of Inspector General Reply. Based on the Bureau’s response, we consider
the recommendation resolved but not implemented.




                                             20
Recommendation 5. Concurrence.

       Bureau of Land Management Response. In its June response, the Bureau did not
agree to revise the Land Exchange Handbook and Instruction Memorandum 97- 113, stating
that the current delegation of authority, which allows the State Director “to re-delegate
authority for approving market value to the State Office Chief Appraiser or other qualified
review appraisers” from other agencies or the private sector is a “practical way to handle
appraisal review workload and is also consistent with” the exchange regulations.

The Bureau also stated that it “disagrees with the recommendation regarding ‘bargaining.“’
However, in the July response, the Bureau said that it will “revise the Land Exchange
Handbook to clarify that all appraisals used in a land exchange will be subject to
administrative acceptance by a BLM [Bureau of Land Management] State Chief Appraiser
or an officially designated Bureau Appraiser prior to being submitted to the authorized
officer.” The Bureau further stated, “The Handbook will also be revised to clarify that
bargaining will only be conducted after an appraisal has been prepared and the Bureau and
exchange proponent have been unable to reach agreement on the appraised value.” The July
response identified the Assistant Director, Minerals, Realty, and Resource Protection, as the
official responsible for implementation and September 30, 1998, as the target date for
implementation.

       Office of Inspector General Reply. Based on the Bureau’s response, we consider
the recommendation resolved but not implemented.

General Comments on Audit Report

In the Bureau’s July 24, 1998, supplemental response (Appendix 4) to the draft report, the
Bureau generally concurred with the recommendations and agreed to take corrective actions.
However, the supplemental response did not alter the Bureau’s June 29, 1998, response
(Appendix 5) regarding the Bureau’s nonconcurrence with the audit report findings and
conclusions and the monetary impacts included in Appendix 1 of the report. The Bureau
expressed similar statements of nonconcurrence in its February 24,1998, review comments
on the preliminary draft of the advisory report for the Del Webb land exchange and its
March 26, 1998, review comments on the preliminary draft of this audit report. We
considered each of the Bureau’s earlier comments and made changes to the reports as
appropriate, but we did not alter our conclusions. The most significant areas of disagreement
identified in the Bureau’s responses and our replies to those comments are presented in the
paragraphs that follow.

Bureau Actions Taken To Improve Land Exchange Program

       Bureau of Land Management Response. In the June response, the Bureau stated,
“We want to focus attention on the larger management issues involved in the Bureau’s land
exchange program, and at the same time respond to many of the concerns addressed in the
draft Audit Report.” The Bureau identified issues that it said “appear to fall within several

                                             21
broad areas of concern.” These areas were (1) management oversight, (2) land exchange
policies and procedures, and (3) appraisal procedures. The Bureau then summarized 20
actions that it had taken or was planning to take to improve the overall management
oversight of its land exchange program, ensure compliance with land exchange policies and
procedures, and improve administration of the appraisal function (Appendix 5, pages 1
through 4).

        Office of Inspector General Reply. We acknowledge the Bureau’s reported efforts
and believe that these actions have the potential to improve controls over Nevada land
exchange activities and the appraisal process. However, we found that some of the Bureau’s
actions which were implemented prior to or during our followup audit did not ensure that
land exchanges were processed in accordance with established procedures. For example, in
its June response, the Bureau stated that it had “completed an Alternative Management
Control Review (AMCR) of the Nevada land exchange program in 1997.” This review was
undertaken as a corrective action to resolve Recommendation A.3 from our July 1996 audit
of Nevada land exchange activities and was therefore a primary focus of our followup audit.
Generally, the Bureau’s review concluded that the Nevada District Offices and the Nevada
State Office had sufficient guidance and controls to conduct exchanges, that exchanges were
being processed in accordance with written guidance, and that files were being well
documented. However, we found that the applicable laws and regulations and Bureau
policies and procedures were not adhered to consistently and that significant decisions to
deviate from procedural requirements which adversely affected land valuations were not
fully justified and documented in the exchange files. Moreover, we noted instances in
which, in our opinion, acquired lands were not valued in accordance with recognized
standards (pages 8 through 10). Our concern that the Washington Office’s Alternative
Management Control Review did not identify the significant continuing problems with Las
Vegas area land exchanges was a primary factor in our decision to recommend the
establishment of an independent land exchange review team and a temporary moratorium on
Nevada land exchanges (Recommendations 2 and 3 in this report).

Appraisal Issues

      Bureau of Land Management Response. In its June response, the Bureau stated:

       The BLM [Bureau of Land Management] takes particular exception to the
       implication in Appendix 1 of the draft Audit Report that the appraisal
       decisions for several exchange transactions resulted in lost revenues of $18.2
       million. The appraisal reports on the Cashman and Dreyfus/Zephyr Cove
       land exchanges were prepared by highly qualified appraisers, and reviewed
       and approved by BLM [Bureau of Land Management] review appraisers.
       The appraisers and review appraisers diligently gathered, verified, and
       analyzed the best information available, in reaching their conclusion of value.
       We believe the review appraiser performed the due diligence necessary to
       reach a conclusion of value. [See Appendix 5, page 4.1



                                             22
        Office of Inspector General Reply. The Bureau’s statement that the Dreyfus/Zephyr
Cove appraisal was reviewed and approved by Bureau review appraisers is not accurate. As
discussed in our report (page 1 l), we found that the Nevada State Office allowed a U.S.
Forest Service regional appraiser to review the appraisal report and to approve the land
values for the private property included in the first Dreyms/Zephyr Cove exchange
transaction, an action that was contrary to requirements contained in the Bureau Manual.
Further, we found (pages 8 through 10) that private lands were not valued on the basis of
their “as is” condition and on existing development potential but rather on unsubstantiated
assertions that use permits could be obtained or that land use restrictions could be overcome
to allow the property to be developed with a more profitable “highest and best use.”

       Bureau of Land Management Response. The Bureau stated:

        The draft Audit Report finds that ‘there was no credible evidence to support
        the assertion that a use permit allowing development of a 650-lot subdivision
        on the Cashman property could be obtained’ and therefore the property was
        overvalued by $2.5 million. The appraisers and reviewers made a diligent
        effort to thoroughly and professionally evaluate all of the valuation issues
        related to the Cashman property. The appraisal and the review statement for
        the appraisal, documents the appraisers’ and the review team’s deliberations
        regarding these issues. After an examination of the comparable sales and
        discussions with the Clark County Planning and Zoning staff and the
        engineering contractor, the appraisers and review appraisers concluded there
        was a reasonable likelihood that water could be obtained and developed and
        that potential buyers would conclude the same. The appraisers knew water
        was a problem, but after looking into the issue and considering information
        presented by zoning officials and engineering consultants, they decided that
        the availability of water was not an insurmountable problem. [See
        Appendix 5, pages 7 and 8.1

       Office of Inspector General Reply. As discussed in our report (page 9), we found
that the appraisers did not consider specific credible evidence indicating that it was unlikely
that a use permit could be obtained for the development scenario on which the appraisal was
based and that they relied instead on the verbal statements of a local planning official as their
exclusive support. Further, while the documentation we obtained as part of our review of
this exchange confirmed that the review appraisers did deliberate over whether or not the
appraisal report and its value of $8.5 million were adequately supported and prepared in
accordance with the “Uniform Appraisal Standards for Federal Land Acquisitions,” we found
that this documentation also demonstrated that the appraisers ultimately approved an
appraisal that was not in compliance with the “Standards.” Specifically, in a November 28,
1995, facsimile sent just 6 days before he approved the appraisal, the Bureau’s review
appraiser discussed the fact that the appraisal report was still based on a number of unknowns
and speculation and stated, “If management feels it is appropriate, the $8.5 [million] could
be the agreed upon value. The favorable outcome or resolution of all the negatives listed
above are within the realm of possibility, but are too speculative to support a Uniform

                                               23
Appraisal Standards determination of FMV [fair market value].” (Emphasis added.) Further,
in a March 29, 1996, message sent 2 days after the Bureau acquired the Cashman property
for the approved exchange value of $8.5 million, the U.S. Forest Service’s review appraiser
stated, “It occurs to me that we need to be prepared to discuss why the appraisal was
approved with bogus engineering information that the appraiser was not made aware of due
to the 4:30 PM deadline that the reviewers were working under.”

       Bureau of Land Management Response. The Bureau stated:

        The draft Audit Report finds that ‘the asserted development potential of the
        Dreyfus/Zephyr Cove property was not substantiated by credible evidence’
        and therefore the property was overvalued by $9.8 million. The best
        available information from real estate professionals, attorneys, consultants,
        and the local zoning authority (Tahoe Regional Planning Agency) was used
        in the determination by the appraiser and review appraiser that there was
        reasonable probability the property could be divided. The BLM [Bureau of
        Land Management] accepted the assertion of development potential in
        accordance with the ‘Uniform Appraisal Standards for Federal Land
        Acquisitions’ which states, ’ . . . if the property is clearly adaptable to a use
        other than the existing use, its marketable potential for such use should be
        considered in determining the property’s fair market value.’ In many other
        areas, reasonableness of the determination of highest and best use may be
        ‘tested’ by indications of similarly approved development in the vicinity of a
        subject property. However, in the Lake Tahoe area this form of ‘testing’ is
        inconclusive due to the lack of similar properties. The draft Audit Report
        also fails to recognize at least two other conditions which influenced the
        disparity in value. First, the entire property was not acquired at one time and
        the appraisal reports and review approvals reflect the separate values of
        Phase I and Phase II as ‘stand-alone’ parcels. Second, Phase II of the
        exchange occurred almost a year after the exchange proponent acquired the
        entire property and during this time period sales data shows marked increases
        in the value of lakefront property. [See Appendix 5, page 8.1

       Office of Inspector General Reply. As discussed in our report (pages 9 and 10). we
found that the best available information was not used in the determination made by the
appraiser and review appraiser that there was reasonable probability that the property could
be divided. In this instance, we believe that the best available information was (1) the initial
appraisal report submitted by the appraiser, which stated that “new subdivisions were
generally prohibited” after 1980 and that “it would be very difficult to receive approval for
a new residential subdivision on the subject property” unless the Tahoe Regional Planning
Agency agreed that the property consisted of several legally existing parcels created prior to
1972; (2) the Tahoe Regional Planning Agency’s ordinances, land use plans, and planning
records, which documented that the Agency’s Counsel did not recognize the existence of
more than one legal parcel on the subject property, that the type of subdivision proposed in
the final appraisal was not permissible, and that no similar subdivisions had been authorized;


                                              24
and (3) that this property, including significant residential improvements with substantial
value, was marketed for more than 1 year at an asking price of $30 million and was
purchased by the exchange proponent for $28 million.

The Bureau stated that it accepted the asserted development potential of this property in
accordance with the “Standards,” which states that “if the property is clearly adaptable to a
use other than the existing use, its marketable potential for such use should be considered in
deterrnining the property’s fair market value.” However, the “Standards” immediately
qualifies this requirement with the statement that the property’s value “cannot be predicated
upon potential uses that are speculative and conjectural; as the Supreme Court has said:
‘Elements affecting value that depend upon events or combinations of occurrences which,
while within the realm of possibility, are not fairly shown to be reasonably probable should
be excluded from consideration, for that would be to allow mere speculation and conjecture
to become a guide for the ascertainment of value.“’ Further, as discussed in the report
(page 8, footnote 4), the “Standards” requires the appraiser to show that any alternative use
selected as the highest and best use is legally permissible.

In this case, the appraiser did not show that the proposed highest and best use was legally
permissible in accordance with the Tahoe Regional Planning Agency’s land use plans and
ordinances. In his initial appraisal report, the appraiser discussed the local regulatory
restrictions on development of the property and stated that “it would be very difficult to
receive approval for a new residential subdivision on the subject property.” The appraiser
subsequently revised his appraisal report to conclude that the property could be subdivided
into five individual residential parcels based on statements made in a letter provided by the
Tahoe Regional Planning Agency’s legal counsel. However, based on our review of the
Tahoe Regional Planning Agency’s ordinances, land use plans, and planning records and on
our discussions with the Agency’s legal counsel, we concluded that such a subdivision of
land was not permissible under the Agency’s Code for this or any other property in the Lake
Tahoe Basin (see footnote 7).

The Bureau also stated that our report “fails to recognize at least two other conditions which
influenced the disparity in value.” These conditions were that the Dreyfus/Zephyr Cove
property was appraised and acquired by the government as two “stand-alone” parcels and that
the second “stand-alone” parcel was acquired by the Government almost a year after the
exchange proponent purchased the entire property. We agree that the two factors mentioned
by the Bureau may have had some part in the $9.8 million loss on this exchange. However,
we concluded that the most significant valuation errors were associated with the appraisal
used for the first phase of the exchange, in which the appraiser’s assertion that the entire
parcel could be legally subdivided into five separate residential parcels was not substantiated
by credible evidence. Based on the use of this assertion, the approved appraised value of the
undeveloped 35.4 acres acquired by the Bureau in the first phase of the exchange was
$24.25 million, which closely approximated the $28 million the exchange proponent paid
for the entire 47.2-acre property. Had the appraisal not been based on the asserted legality
of such a subdivision, we believe that the appraised value of the undeveloped portion of the



                                              25
property (35.4 acres) as a “stand-alone” parcel would have been significantly less because
of its limited development potential.

       Bureau of Land Management Response. The Bureau stated:

        The draft Audit Report finds that ‘the Bureau did not provide an adequate and
        effective review of the Forest Service’s negotiation documentation and
        appraisal review’ for the Deer Creek exchange and therefore the property was
        overvalued by $5.9 million. The draft Audit Report recognizes that the value
        for this transaction was reached through a bargaining effort by a Forest
        Service bargaining team. It should be noted that the BLM [Bureau of Land
        Management] Nevada State Director had officially delegated these appraisal
        responsibilities to the Forest Service in March 1995. The authority to utilize
        bargaining or another process to resolve disputes over value is provided for
        by Section 3 (a) of the Federal Land Exchange Facilitation Act of 1988. The
        bargaining effort is based on an analysis of appraisal reports, assumptions
        made by the appraisers, the adequacy of market information, and the
        reasonableness of the conclusions of value. The Forest Service bargaining
        agreement clearly considered these factors. Any offer, settlement, or agreed
        upon value must be approved by a management official, which in this case
        was the BLM Nevada State Director, not the State Chief Appraiser. The
        BLM Nevada State Director accepted the negotiated value. The bargaining
        effort was successful in that the negotiated value was some $2 million less
        than the value asserted by the exchange proponent. [See Appendix 5,
        page 10.1

       Office of Inspector General Reply. As discussed in our report (pages 12 and 13),
our issue was with the adequacy of the Bureau’s review of the Forest Service’s bargaining
efforts rather than with the delegation to the Forest Service. The Bureau stated that the
bargaining effort is to be based on an analysis of appraisal reports, appraisal assumptions and
market information, and appraisal conclusions. Further, the Bureau stated that the Forest
Service’s bargaining agreement clearly considered these factors and therefore was approved
by the Nevada State Director. As discussed in this report (pages 12 and 13), we found that
the Bureau provided no more than a cursory review of the Forest Service bargaining
agreement and that no Governrnent appraiser from either the Bureau or the Forest Service
was consulted on the technical appraisal issues resolved through bargaining. We found that
the only appraiser consulted as part of the bargaining effort was a private appraiser who
provided advice on the disputed appraisal issues to the private exchange parties several
months before the bargaining meetings were held. We also do not agree with the Bureau’s
categorization of the bargaining effort as “successful,” considering that the Forest
Service-bargained price of $10.5 million was more than double the Bureau’s approved
appraised value of $4.6 million established by a Federal appraisal review team.
Consequently, we believe that the redelegation to the U.S. Forest Service without adequate
and effective review by the Bureau was an improper action that resulted in a significant loss
to the Government.

                                              26
Land Use Plan

       Bureau of Land Management Response. The Bureau stated:

        The draft Audit Report also suggests that an additional $3.4 million of funds
        could have been put to better use since there was no mission-related purpose
        for the acquisition of three parcels of land in the Sunrise Mountain area as
        part of the Dreyfus/Zephyr Cove exchange. The environmental assessment
        and decision record for the DreylUZephyr Cove exchange clearly
        documented the determination of public interest in the acquisition of these
        offered lands adjacent to Sunrise Mountain. [See Appendix 5, page 4.1

        Office of Inspector General Reply. Based on our review of the environmental
assessment, the decision record, and the exchange case file, we concluded that the Bureau
did not clearly document the specific public interest served by the acquisition of these
parcels. Moreover, we found that the exchange case file did not have any documentation that
would justify the Bureau’s decision. AAer we asked staff why the Bureau planned to acquire
this property, the Las Vegas Office placed a memorandum in the file which stated that the
lands had recreational potential for development ofparking lots, picnic areas, and trail heads.
However, the author of this memorandum also told us that the Bureau had no plans as to
when such improvements might be made.

Based on the documents reviewed, we concluded that the acquisition of the Sunrise parcels
was not in conformance with the current plan, which identified the adjacent public land as
being available for disposal. As discussed in our report (page 1 l), the Bureau’s pertinent
land use plan for the area stated that the adjacent public land was “not identified as needed
for any Federal program. . . . The problems of illegal occupancy, dumping, and other trespass
are rampant, and would be eliminated by disposal.” However, the Bureau’s draft resource
management plan indicated that the adjacent public land will no longer be available for
disposal. As such, if the Bureau had determined that the current plan was outdated, that the
problems of illegal occupancy and dumping on the adjacent land had been resolved, and that
there was a specific need to acquire these new parcels, Bureau regulations provided a
mechanism for accomplishing the acquisition. That is, the Bureau could have (1) amended
the existing land use plan, as it is doing to accommodate the Permabilt/American Land
Conservancy exchange, or (2) finalized the draft resource management plan, as with its
efforts to accommodate the Del Webb exchange. However, the Bureau did not take either
action and proceeded despite the provision of the Code of Federal Regulations (43 CFR
2200.0-6(g)) that states, “The authorized officer shall consider only those exchange proposals
that are in conformance with land use plans or plan amendments.”

Del Webb Exchange

       Bureau of Land Management Response. The Bureau noted that the draft audit
report included references to our previous advisory report on the Del Webb exchange and
stated, “We strongly disagree with the concerns expressed in the Advisory Report and


                                              27
suggestions that there could have been a $9.1 million loss to the Federal government from
this exchange.” The Bureau also stated that the Bureau’s decision to obtain a second
appraisal of the selected Federal land demonstrated that appropriate management safeguards
were in place and that the Bureau “takes particular issue with the implied criticism that there
is something inappropriate about elevating decisions on high priority, high visibility and/or
sensitive issues from a field organization to Headquarters.” (See Appendix 5, page 4.)

       Office of Inspector General Reply. As stated in the advisory report (pages 3, 12,
and 14) on the Del Webb land exchange, we believe that procedural safeguards established
by the Nevada State Office, which were designed to ensure that fair value was established
and that the appraisal was conducted in accordance with recognized Federal appraisal
standards, were overridden by the Washington Office in February and March 1996 and that
the exchange would have been consummated for $9.1 million less had the Bureau not been
subjected to external factors that exerted pressure on it to obtain a second appraisal. As such,
we were not critical of the elevation of decisions to the Headquarters level but of the
Washington Office’s nonconformance with established standards and controls without
explanation or justification.

Notice of Decision

       Bureau of Land Management Response. The Bureau stated:

        The draft Audit Report concludes that Notices of Decision were issued on
        several land exchanges before appraisals and other required analyses were
        completed.     This issue involves exchange transactions that predated
        discussions of the requirements of 43 CFR 2201.7-l with the Department
        Solicitor in late 1996. The BLM [Bureau of Land Management] issued a
        clarification of Bureau policy by Instruction Memorandum 97-74, dated
        February 11, 1997. The BLM Nevada State Director subsequently provided
        supplemental guidance that Notices of Decision would not be published until
        all the required reports, including the appraisal, are complete and available
        for public inspection during the comment period. [See Appendix 5, pages 9
        and 10.1

       Office of Inspector General Reply. In our report (page 12), we acknowledge that
the Bureau issued Instruction Memorandum No. 97-74 after the initial Notices of Decision
for these three exchanges were signed. However, the memorandum primarily reaffirmed the
requirements of the Bureau’s existing regulations. As such, the initial Notices of Decision
were not in compliance with the Bureau’s exchange regulations, which state that a decision
to approve an exchange is required to be made “upon completion of all environmental
analyses and appropriate documentation, appraisals, and all other supporting studies and
requirements to determine if a proposed exchange is in the public interest and in compliance
with applicable law and regulations.” More significantly, the Washington Office’s technical
procedures review team did not identify this noncompliance issue in its review report.
Further, we found that the Las Vegas Field Office did not fully comply with the Bureau’s


                                              28
instruction (page 12). While the notices for the Del Webb and Permabilt/American Land
Conservancy exchanges were reissued after appraisals and other required documents were
completed and approved, the second phase of the Dreyfus/Zephyr Cove exchange was
completed on April 25, 1997, without a new notice of decision and public review
opportunity. The Las Vegas Field Office’s action of proceeding with the second phase of
the Dreyfus/Zephyr Cove exchange without issuing a new notice of decision was therefore
contrary to both the Bureau’s regulations and Instruction Memorandum No. 97-74.

In accordance with the Departmental Manual (360 DM 5.3), we are requesting a written
response to this report by November 6, 1998. The response should provide the information
requested in Appendix 6.

The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, the monetary impact of audit findings
(Appendix l), actions taken to implement audit recommendations, and identification of each
significant recommendation on which corrective action has not been taken.

We appreciate the assistance of Bureau personnel in the conduct of our review and the
timeliness of the Bureau’s response to our draft report.




                                            29
                                                                                             APPENDIX 1


                CLASSIFICATION OF MONETARY AMOUNTS


                                                                                         Funds To Be Put
              Finding                                       Lost Revenues                 To Better Use

Exchange Processing

     Exchange No. N-57877
        Fair Market Value                                     $5,900,000 ’

     Exchange No. N-59728
        Fair Market Value                                     $2,500,000 ’

     Exchange No. N-6073 1
        Fair Market Value                                     $9,800,000 3
        Land Use Plan                                                                       $3.400,000 4

        Total                                               $18,200,000                     $3,400,000




‘Represents the amount by which the Deer Creek property acquired by the Bureau was overvalued because the
Nevada State Office improperly redelegated the State Director’s authority to bargain over a disputed appraised
value to U.S. Forest Service officials.

‘Represents the amount by which the Cashman property acquired by the Bureau was overvalued because the
asserted development potential of the property was not adequately substantiated in accordance with the
“Uniform Appraisal Standards for Federal Land Acquisitions.”

3Represents the amount by which the Dreyfus/Zephyr Cove property acquired by the Bureau was overvalued
because the asserted development potential of the property was not adequately substantiated in accordance with
the “Uniform Appraisal Standards for Federal Land Acquisitions.”

‘Represents the exchange value of three parcels of private land acquired by the Bureau within the Las Vegas
urban area. The parcels were located within the identified land disposal area of the Bureau’s current land use
plan. Therefore, the Bureau’s acquisition of these parcels was not in conformance with the land use plan and
was not in compliance with the Bureau’s land exchange regulations (43 CFR 2200.0-6(g)).

                                                     30
                                                                                            APPENDIX 2
                                                                                              Page 1 of 2

                 STATUS OF RECOMMENDATIONS AND
               CORRECTIVE ACTIONS FOR AUDIT REPORT
                “NEVADA LAND EXCHANGE ACTIVITIES,
                   BUREAU OF LAND MANAGEMENT”
                           (No. 96-1-1025)

                                                                 Status of Recommendations
             Recommendations                                       and Corrective Actions
A.1 Institute competitive procedures (sale or            A. 1 Partially implemented. The Bureau agreed to
competitive exchange) into the land disposal             implement the recommendation by developing a
process to the maximum extent practicable.               strategy to incorporate competitive procedures into
                                                         the land disposal process. This required the
                                                         evaluation of different approaches, the selection of
                                                         an option, and the development and testing of a
                                                         pilot project. However, we found that the pilot
                                                         project had not been developed and tested.

A.2 Direct that all easements on Federal lands           A.2 Implemented. The Bureau’s Washington
proposed for disposal be reviewed to verify              Office issued Instruction Memorandum 97-08,
grantee needs and that actions be taken to remove        which required all encumbrances on public lands
any easements that are not needed before Federal         considered for exchange or sale to be reviewed as
lands are exchanged or sold.                             part of the case-processing procedures.

A.3 Establish the controls necessary to ensure           A.3 Not implemented. The Bureau completed the
that land exchanges are processed in full                control review and finalized its new land exchange
accordance with applicable laws, regulations, and        handbook.       However, we found that the
Bureau procedures.                                       conclusions that the Bureau reached as a result of
                                                         its control review were not substantiated by the
                                                         available evidence. We also found that the new
                                                         Handbook contained guidance that appeared to be
                                                         in conflict with applicable laws and regulations or
                                                         that weakened Bureau controls over the appraisal
                                                         and valuation process. In addition, the Bureau was
                                                         not complying with existing controls over the
                                                         appraisal and valuation process.

B. 1 Ensure that the accounting reports of income        B. 1 Implemented. The Bureau’s Washington
and expenditures required by Section 2(e) of the         Office issued Instruction Memorandum No.
Santini-Burton Act are prepared and submitted to         96-179, which directed its National Business
Bureau headquarters for submission to the                Center to provide the required biannual accounting
appropriate Congressional oversight committees.          information, and the Assistant Secretary submitted
                                                         the first such report to the appropriate
                                                         Congressional oversight committee in April 1997.




                                                    31
                                                                                            APPENDIX 2
                                                                                              Page 2 of 2



                                                                  Status of Recommendations
             Recommendations                                        and Corrective Actions
B.2 Ensure that the Nevada State Office uses the          B.2 Implemented. After receiving guidance from
land sales process, except in compelling                  the Office of the Solicitor, the Bureau’s Nevada
circumstances, when disposing of Santini-Burton           State Director instructed the Las Vegas Field
Act lands until the sales revenues generated              Office that public lands within the Santini-Burton
closely approximate the Lake Tahoe Basin                  Act land sale area should only be sold using
acquisition costs. Any exchange proposals from            competitive procedures. On March 4, 1998, the
that time on should be closely monitored to               Las Vegas Field Office notified the Volkmar
ensure that the exchange is justified and that the        exchange proponent that the Santini-Burton Act
costs incurred as a result of the Santini-Burton          land he had selected was being excluded from the
Act remain relatively nominal.                            exchange.




                                                     32
                                                         LAND EXCHANGES REVIEWED

     Exchange                                              Transaction                        Land Acquisitions                         Land Disposals
      Number             Exchange Name’                Number        Date                  Acreage        Value                     Acreage       Value

    Exchanges With Completed Transactions
    N-57877     Deer Creek                1                             1 l/13/95           1,013.49          $1,600,000
                                          2                             12/04/95                                                       105.12          $1,810,000
                                          3                             12113195               32.50              339,000
                                          4                             03/ 19/96             458.98           10,520,OOO
                                          5                             0313 1 I97                                                      5.00              5 50,000
    N-59728     Cashman                   1                             03/27/96            1,297.51           8,500,OOO              947.50            8,787,509
    N-60167     Del Webb                  1                             07129197            5,328.OO          10,990,000              922.00           11,452,639
W
W   N-6073 1    Dreyfus/Zephyr Cove       1                             1 O/09/96               35.42         24,250,OOO            1,357.38           27,474,6 I8
                                          2                             04125197               138.94         17,435,ooo              969.54           14,364,075
     Total Land Exchanged                                                                   8.304.84         $73.634,000 ’          4,306.54          $64,438,841

     Exchanges      Without Completed Transactions
     N-55975        Permabilt/American Land Conservancy
     N-5833 1       Falcon Pointe
     N-58563        Volkmar
     N-59905        Lake Las Vegas




    ‘The “exchange name” used by the Bureau generally reflects either one of the signiticant properties involved in the exchange or the proponent’s name.

    ‘The difference in land values does not represent a profit to the Bureau. The additional value received by the Bureau generally was used to cover the difference
    in value from previous transactions in which the proponent received land that was more valuable than the land acquired by the Bureau.
                                                                                      APPENDIX 4
                                                                                      Page I of 3

                United States Department of the Interior
                               BUREAU OF LAND MANAGEMENT
                                        Washington, D.C. 20240



                                                           JUL 24   1988         In Reply Refer to:
                                                                                   1245/2200 (350)



Memorandum

To:

Through:

From:          Director, Bureau of Land Management

Subject:       Supplemental Response - Draft Audit Report on Nevada Land Exchange
               Activities (W-IN-BLM-00 l-97)

This memorandum provides supplemental responses to the Bureau’s comments provided on June
29, 1998 to the Office of the Inspector General’s Draft Audit Report on Nevada Land Exchange
Activities. These supplemental responses were requested as follow-up to meetings with your
office held on July 13 and July 15, 1998.

Recommendation 1: Identify the Bureau’s entire land exchange program as a material weakness
in the Department’s Annual Accountability Report.

Supplemental Response: The Bureau has agreed to identify the land exchange program as a
material weakness. The responsible Bureau official for this action is the Assistant Director,
Minerals, Realty and Resource Protection. Target completion date for submittal of the plan
required by the Annual Accountability Report is September 30, 1998.

Recommendation 2: Establish a “land exchange review team” that includes representatives who
are non-Bureau personnel. This team should provide advice concerning compliance with
established laws, regulations, and procedures for all significant land exchanges before lands are
acquired or disposed of through an exchange. Also. team members should possess the technical
skills and proficiency, including a through knowledge of the appraisal process and the applicable
appraisal standards, required to conduct an effective review of proposed exchanges.

Supplemental Response: The Bureau has prepared and submitted to the Department for review a
proposal to establish a National Land Exchange Evaluation and Assistance Team. This Team
would review land exchange actions and decisions pursuant to the procedures established by this



                                               34
                                                                                         APPENDIX 4
                                                                                         Page 2 of 3


office on December 29, 1997. for a second level review of exchanges in excess of $500,000 in
value. Upon concurrence of the Department. we will proceed with implementation of the Team.
We anticipate that establishment of this Team will satisfy the concerns expressed by the Office
of the Inspector General regarding oversight of land exchanges. This proposal. however, does
not include non-Bureau representatives as members of the Team. Such a proposal would create
potentially troubling issues regarding compliance with the Federal Advisory Committee Act
(FACA), Departmental delegations (for example, the Solicitor’s delegated role in determining
whether agency actions comply with law), appropriate handling of confidential information, and
other issues that might arise if the BLM used non-federal personnel for performing functional
responsibilities in the land exchange process. We will continue to evaluate options to consider
other means of increasing objective input in the review of land exchanges, including the
involvement of non-Bureau individuals. It should be recognized, however, that the land
exchange process currently provides for full public review and input on land exchange proposals
and land exchange decisions, including public review of appraisal reports and information.
Other options could include participation by the FACA chartered Resource Advisory Councils in
the review of land exchange actions, or other federal agency representation on land exchange
program evaluation teams. The responsible Bureau official for this action is the Assistant
Director, Minerals. Realty and Resource Protection. Target implementation date for this action is
September 30, 1998.

Recommendation 3: Establish a moratorium on land exchanges in the State of Nevada pending
establishment of the independent land exchange review team identified in Recommendation 2.

Supplemental Response: The Bureau does not agree to a moratorium on land exchanges in
Nevada. However, BLM does not plan on processing additional land exchanges in the Las
Vegas area until the existing priority exchanges are substantially completed and the National
Land Exchange Evaluation and Assistance Team, as identified above, is approved by the
Department and established and available to assist the BLM Nevada State Director. The Bureau
will continue to process these existing priority exchanges for the near future. These existing
exchanges are subject to the review procedures established by this office on December 29, 1997.
The responsible Bureau officials for this action are the Assistant Director, Minerals, Realty and
Resource Protection and the Nevada State Director. Target implementation date to establish the
Team is September 30, 1998.

Finally, no additional lands will be acquired in the Las Vegas area unless consistent with the
Final Las Vegas Resource Management Plan (RMP). The RMP was released on June 15, 1998
and is expected to be effective in October 1998.

Recommendation 4: Ensure that appraisals are supported by credible evidence, as required by
the “Uniform Appraisal Standards for Federal Land Acquisitions”, when the appraised value is
based on an assertion that the property’s highest and best use is different from its current zoning
or use.

Supplemental Response: The Bureau agrees with this recommendation. An appraisal training
course is currently being developed in partnership with the Appraisal Institute and the American


                                               35
                                                                                       APPENDIX 4
                                                                                       Page 3 of 3


Society of Farm Managers and Rural Appraisers. This course will provide instructional materials
on highest and best use, ?easonable probability” of development. and appraisal review
procedures. The responsible Bureau official for this action is the Assistant Director, Minerals,
Realty and Resource Protection. Target implementation date for this action is June 1, 1999.

Recommendation 5: Revise the Land Exchange Handbook and Instruction Memorandum 97-
113 to ensure that all appraisal reports used in a land exchange are reviewed and approved by the
State Chief Appraiser and to ensure that the described procedures for dispute resolution are
consistent with the requirements of the Federal Land Policy and Management Act of 1976, as
amended, and the Code of Federal Regulations (43 CFR 2200).

Supplemental Response: The Bureau will revise the Land Exchange Handbook to cla.rifL that all
appraisals used in a land exchange will be subject to administrative acceptance by a BLM State
Chief Appraiser or an officially designated Bureau Appraiser prior to being submitted to the
authorized officer, in accordance with applicable regulations. However, the existing Bureau’s
delegation of authority (BLM Manual 1203) will still provide for review of appraisal reports by
Bureau or other qualified review appraisers. As noted in our June 29, 1998 response, there are
practical reasons for relying on reviewers other than the State Chief Appraiser. The Handbook
will also be revised to clarify that bargaining will only be conducted after an appraisal has been
prepared and the Bureau and exchange proponent have been unable to reach agreement on the
appraised value. The responsible Bureau official for this action is the Assistant Director,
Minerals, Realty and Resource Protection. Target completion date for this action is September
30, 1998.

It is hoped these supplemental responses are considered in preparation of the Final Report. If
you have any additional questions, please contact Ray Brady, Manager, Lands and Realty Group
at (202) 452-7773.




                                              36
                                                                                         APPENDIX 5
                                                                                         P a g e 1 o f 14

                 United States Department of the Interior
                                BUREAU OF LAND MANAGEMENT
                                         Washington, D.C. 20240




                                                                                   In Reply Refer to:
                                                                                     1245/2200 (3 50)
                                         JUN 29 I998

 Memorandum

 To:            Office of Inspector

Thr0ur.h:       Assistant Secretary,
mu SOR
 From:          Director, Bureau of Land Management

 Subject:       Review of Draft Audit Report-Followup of Nevada Land Exchange Activities
                Assignment No. (W-IN-BLM-00 l-97)

 I appreciate the opportunity to review and comment on the Office of the Inspector General’s
 Draft Audit Report on Nevada Land Exchange Activities, which was delivered to our office on
 June 12, 1998. This is a followup report to the Audit Report of July 1996.

 The draft Audit Report identifies issues that appear to fall within several broad areas of concern.
 We want to focus attention on the larger management issues involved in the Bureau’s land
 exchange program, and at the same time respond to many of the concerns addressed in the draft
 Audit Report. We have identified these areas as 1) management oversight, 2) land exchange
 policies and procedures, and 3) appraisal procedures. I would like to summarize the actions that
 Bureau of Land Management (BLM) has taken to address issues and concerns in each of these
 areas, and also summarize our planned future actions.

 M a n a g e m e n t

 BLM has made several recent improvements in the land exchange program that will directly
 benefit land exchange activities in Nevada and also improve the overall management oversight of
 the Bureau’s land exchange program. The following actions are highlighted and should be
 recognized in the Final Audit Report:

 l       Placed a limited moratorium on land exchanges in the Las Vegas District. The BLM
         Nevada State Office allowed six ongoing land exchanges to proceed, but a moratorium
         was placed on new land exchanges. This was done because of limited staff available to
         take on any additional work and to maintain a sufficient level of management oversight of
         existing land exchanges.



                                                  37
                                                                                     APPENDIX 5
                                                                                     Page 2 of 14


                                                                                                2

     Improved management and staff capability at the BLM Nevada State Office and Las
     Vegas Field Office.

     Revised delegation of authority to ensure an increased level of management oversight of
     the real estate appraisal program.

     Established procedures for a second level review by the State Director of all land
     exchanges and Washington Office concurrence in decisions involving exchanges in
     excess of $500,000 in value.

     Finalizing plans for establishing a Bureauwide land exchange team to assist in the review
     of high priority exchanges, provide additional technical support to BLM field offices, and
     address policy and procedural issues.

Land Exchange Policies and Procedures

BLM has worked very closely with the Office of the Solicitor to ensure that land exchange
policies and procedures are consistent with the provisions of the Federal Land Exchange
Facilitation Act of 1988 (Public Law 100-409). Regulations implementing the provisions of
the Act were finalized in 1993 and have provided the regulatory framework for the direction of
the Bureau’s land exchange program. The following actions to ensure compliance with these
policies and procedures have been taken and should be acknowledged in the Fir& Audit
Report:

     Completed the BLM Land Exchange Manual/Handbook in August 1997.

     Initiated a review of potential competitive land exchange procedures with the Office of
     the Solicitor.

     Initiated a review of mineral royalty reservation policies for land exchanges with the
     Office of the Solicitor.

     Issued policy guidance in 1997 that Notices of Decision would not be published until all
     reports required by 43 CFR 220 1.7- 1, including the appraisal report, are complete and
     available for public inspection during the public comment period.

     Completed an Alternative Management Control Review (AMCR) of the Nevada land
     exchange program in 1997. A followup Bureauwide land exchange program evaluation
     is planned during FY 1999.

     Conducted Advanced Lands Transactions course (2100-03) at BLM National Training
     Center in 1997 and 1998 with an increased emphasis on land exchange policies and
     procedures.



                                           38
                                                                                      APPENDIX 5
                                                                                      Page 3 of 14


                                                                                                   3
l    Drafted a MOU and initiated discussions with the Fish and Wildlife Service and Forest
     Service regarding Interagency land exchange processing procedures and policies.

Annraisal Procedures

BLM is aggressively taking action to improve administration of the appraisal function. These
actions are focused on improving the documentation of highest and best use determinations in
urban areas, ensuring compliance with appraisal standards, and clarifying delegations of
authority. The following actions are highlighted and should be recognized in the Final Audit
Report:

     Working on an update of the BLM Appraisal Manual to incorporate provisions of the
     Federal Land Exchange Facilitation Act, changes in delegation of authority, application
     of State certification and licensing, role and responsibilities of other agency appraisers,
     and other policy changes. Manual is expected to be completed during FY 1999.

     Identified the land exchange program, specifically the appraisal function, as a material
     weakness in the 1997 Appraisal Alternative Management Control Review (AMCR).
     Followup program evaluations and AMCRs are planned during FY 1999.

     Initiated development of an appraisal training course in partnership with the Appraisal
     Institute and the American Society of Farm Managers and Rural Appraisers to
     specifically address appraisal issues identified by the OIG. The course is tentatively
     scheduled to be presented during FY 1999.

     Conducted a Bureauwide Appraisal Workshop in March 1998 and forwarded action items
     to management for improving BLM’s appraisal process. Action items included
     developing criteria for obtaining two appraisal reports, ensuring that staff appraisers
     assisting in performing appraisal reviews are adequately trained, and developing policy
     for subdividing large tracts of Federal land into commercially more valuable tracts.

     Initiated improved appraisal contracting procedures in several BLM State Offices to
     reduce delays in obtaining appraisal services. BLM is also developing a policy on the use
     of contributed funds from exchange proponents for contracting of appraisal services.

     BLM Nevada recently hired two new appraisers. Both appraisers have professional MA1
     (Member of the Appraisal Institute) designation, and are Nevada State Certified
     Appraisers.

     Contracted for additional independent reviews of approved appraisals for the Del Webb
     and Dreyfus-Thunderbird Lodge properties. Both appraisal reviews supported BLM’s
     earlier approved valuations.




                                            39
                                                                                       APPENDIX 5
                                                                                       P a g e 4 of I4


                                                                                                 4
l     Working on update of the BLM Advanced Land Transactions course (2100-03) to
      incorporate revised appraisal policies and procedures and address appraisal concerns and
      issues identified by the OIG.

As indicated above. we have taken actions to improve the land exchange program and will
continue to provide oversight of issues related to the administration of BLM Nevada’s land
exchange program. However, we still take issue with some of the interpretations of events,
misunderstandings of existing policy and several of the draft Audit Report’s recommendations.
Attached are specific comments on the draft Audit Report. We request that you thoroughly
review our comments and responses prior to completion of the Final Audit Report. These
comments also supplement our February 24, 1998, review comments on the Preliminary Draft
Advisory Report for the Del Webb Land Exchange and our March 26, 1998, review comments
on the Preliminary Draft Audit Report of Nevada Land Exchange Activities.
                           -
The BLM takes particular exception to the implication in Appendix 1 of the draft Audit Report
that the appraisal decisions for several exchange transactions resulted in lost revenues of $18.2
million. The appraisal reports on the Cashman and Dreyfus/Zephyr Cove land exchanges were
prepared by highly qualified appraisers, and reviewed and approved by BLM review
appraisers. The appraisers and review appraisers diligently gathered, verified, and analyzed the
best information available, in reaching their conclusion of value. We believe the review
appraiser performed the due diligence necessary to reach a conclusion of value. The draft
Audit Report also suggests that an additional $3.4 million of funds could have been put to
better use since there was no mission-related purpose for the acquisition of three parcels of land
in the Sunrise Mountain area as part of the Dreyfus/Zephyr Cove exchange. The
environmental assessment and decision record for the Dreyfus/Zephyr Cove exchange clearly
documented the determination of public interest in the acquisition of these offered lands
adjacent to Sunrise Mountain.

The draft Audit Report also includes references to the Advisory Report - “The Del Webb Land
Exchange in Nevada” (Report No. 98-I-363, March 1998). The Advisory Report does not take
issue with the final approved appraisal for the Del Webb land exchange, but challenges the
appropriateness of management decisions throughout the appraisal process. We strongly
disagree with the concerns expressed in the Advisory Report and suggestions that there could
have been a $9.1 million loss to the Federal government from this exchange. The BLM
decision to seek a second appraisal resulted in BLM receiving greater value for the public
lands. This decision supports our position that appropriate management safeguards are in place
to ensure that the public interests were protected in the processing of this exchange. Because
of the very speculative and volatile nature of the land values in the Las Vegas area, and the size
of this exchange, BLM gave this exchange unprecedented attention in both the Nevada State
Office and the Washington Headquarters Office. The BLM takes particular issue with the
implied criticism that there is something inappropriate about elevating decisions on high
priority, high visibility and/or sensitive issues from a field organization to Headquarters. Such
actions are not unusual and of themselves cannot imply any impropriety.




                                             40
                                                                                  APPENDIX 5
                                                                                  Page 5 of 14




I strongly disagree with the draft Audit Report’s recommendation for a moratorium on land
exchanges in the State of Nevada until an independent land exchange review team is identified.
I share your concern that our exchange program be maintained on a solid footing. I have taken
measures to continue our quest for excellence in this program as indicated above. On
December 29, 1997, I established procedures for a second level review by the State Director,
and Washington Office concurrence in decisions involving exchanges in excess of $500,000 in
value. In addition, I am considering establishing a Bureauwide land exchange team to assist in
the review of high priority exchanges, provide additional technical support to BLM field
offices, and address policy and procedural issues. If BLM were to implement a moratorium,
the objections and negative results from our local and state partners would be overwhelming. I
am moving to provide additional oversight of our land exchange program, which will provide
the safeguards suggested by the draft Audit Report.

I appreciate the opportunity to comment and request that these comments be considered in
preparation of the Final Audit Report. If you have general questions concerning this response,
please contact Gwen Midgett, BLM Audit Liaison Officer at (202) 452-7739. If you have any
specific questions, please contact Ray Brady, Manager, Lands and Realty Group at (202) 452-
7773.




Attachment




                                           41
                                                                                       APPENDIX 5
                                                                                       Page 6 of 14



                                     BLM Comments
                                    Draft Audit Report
                       (Followup of Nevada Land Exchange Activities)

Implementation of Recommendations from the July 1996 Audit Report

Recommendation A. I: Institute competitive procedures (sale or competitive exchange)
into the land disposal process to the maximum extent practicable.

We agree with the draft Audit Report that the Bureau has partially implemented
Recommendation A. 1 of the July 1996 Audit Report. The Bureau of Land Management
(BLM) Washington Office (WO) is working with the Solicitor in developing competitive land
exchange procedures and has requested that the Solicitor review the regulatory or policy
changes that may be required before a competitive land exchange process could be
implemented in the Las Vegas area. The Bureau is prepared to proceed with a pilot effort upon
receipt of advice from the Solicitor.

We also continue to support the proposed Southern Nevada Public Land Management Bill
(H.R. 449), or other similar legislation that would provide for the return of receipts from the
sale of public lands. Such legislation could negate the need for the BLM to conduct
competitive land exchanges in the Las Vegas area.

Recommendation A. 2: Direct that all easements on Federal lands proposed for disposal
be reviewed to verify grantee needs and that actions be taken to remove any easements
that are not needed before Federal lands are exchanged or sold.

The draft Audit Report considers this recommendation from the July 1996 Audit Report
implemented. We concur.

Recommendation A. 3: Establish the controls necessary to ensure that land exchanges
are processed in full accordance with applicable laws, regulations, and Bureau
procedures.

The Bureau does not concur with the draft Audit Report’s conclusions that this
recommendation from the July 1996 Audit Report has not been implemented. Significant
strides have been made towards the establishment of controls to ensure that land exchanges are
processed in accordance with applicable laws, regulations, and BLM procedures. The Bureau’s
Land Exchange Manual/Handbook has been finalized and is being used by all field offrces.
Supplemental guidance regarding land exchange procedures and policies has also been issued
by both the WO and the Nevada State Office.

The specific appraisal reports addressed by the draft Audit Report were prepared by highly
qualified appraisers and review appraisers. The appraisers diligently pursued a variety of
appraisal issues and reached conclusions that were reasonably supported and met Bureau of
Land Management and professional appraisal standards. Most appraisers acknowledge that



                                             42
                                                                                      APPENDIX 5
                                                                                      Page 7 of 14



                                                                                                2

there is room for differences in professional judgement regarding the adjustments to
comparable sales information in the appraisal process. However, these differences of opinion
do not imply that the appraisals or exchanges were inconsistent with applicable laws and
regulations. The draft Audit Report noted that the Bureau conducted an Appraisal Alternative
Management Control Review (AMCR) between March and May 1997, with a focus on the
Nevada appraisal process. However, the draft Audit Report failed to acknowledge that the
AMCR identified several areas for improvement and planned corrective actions by BLM,
including completion of the BLM Appraisal Manual, improved appraisal contracting
procedures, and additional training. These actions are ongoing.

The following comments are also provided to correct misinformation in the draft Audit Report
that led to the conclusion that this Recommendation has not been implemented.

1.   The Justice Department’s “Uniform Appraisal Standards for Federal Land Acquisitions”
     (UASFLA) is applicable to BLM land exchanges only “to the extent appropriate” (43
     CFR 2201.3). The UASFLA sets documentation standards for appraisal reports prepared
     in anticipation of a condemnation trial in a Federal court. Land exchanges are voluntary
     transactions, not condemnation actions. Consequently, the mechanism for setting value
     and resolving value disputes is different. The Federal Land Exchange Facilitation Act of
     1988 recognized this difference and BLM promulgated regulations in 1993 that
     established appraisal provisions that are specifically applicable to federal and non-federal
     lands involved in voluntary land exchange transactions. It should also be noted that the
     “standards” referenced in Footnote 4, page 8 of the draft Audit Report are only guidelines
     when applied to voluntary land exchange transactions.

2.   The draft Audit Report fails to recognize that the BLM Real Estate Appraisal Manual
     (June 1987) has been modified by the provisions of the Federal Land Exchange
     Facilitation Act of 1988. the regulations promulgated in 1993, and the 1997 revised
     delegation of authority policy for appraisal reviews. These regulatory and policy changes
     supercede some provisions of the existing Manual. BLM has been working on an update
     of the Real Estate Appraisal Manual, which is expected to be completed during FY 1999,
     to incorporate these changes.

3.   The draft Audit Report finds that “there was no credible evidence to support the assertion
     that a use permit allowing development of a 650-lot subdivision on the Cashman property
     could be obtained” and therefore the property was overvalued by $2.5 million. The
     appraisers and reviewers made a diligent effort to thoroughly and professionally evaluate
     all of the valuation issues related to the Cashman property. The appraisal and the review
     statement for the appraisal, documents the appraisers’ and the review team’s deliberations
     regarding these issues. After an examination of the comparable sales and discussions
     with the Clark County Planning and Zoning staff and the engineering contractor, the
     appraisers and review appraisers concluded there was a reasonable likelihood that water
     could be obtained and developed and that potential buyers would conclude the same. The



                                            43
                                                                                      APPENDIX 5
                                                                                      Page 8 of 14



                                                                                                 3

     appraisers knew water was a problem, but after looking into the issue and considering
     information presented by zoning officials and engineering consultants. they decided that
     the availability of water was not an insurmountable problem.

4.   The draft Audit Report finds that “the asserted development potential of the
     Dreyfus/Zephyr Cove property was not substantiated by credible evidence” and therefore
     the property was overvalued by $9.8 million. The best available information from real
     estate professionals, attorneys, consultants, and the local zoning authority (Tahoe
     Regional Planning Agency) was used in the determination by the appraiser and review
     appraiser that there was reasonable probability the property could be divided. The BLM
     accepted the assertion of development potential in accordance with the “Uniform
     Appraisal Standards for Federal Land Acquisitions” which states, “...if the property is
     clearly adaptable to-a use other than the existing use, its marketable potential for such use
     should be considered in determining the property’s fair market value.” In many other
     areas, reasonableness of the determination of highest and best use may be “tested” by
     indications of similarly approved development in the vicinity of a subject property.
     However, in the Lake Tahoe area this form of “testing” is inconclusive due to the lack of
     similar properties. The draft Audit Report also fails to recognize at least two other
     conditions which influenced the disparity in value. First, the entire property was not
     acquired at one time and the appraisal reports and review approvals reflect the separate
     values of Phase I and Phase II as “stand-alone” parcels. Second, Phase II of the exchange
     occurred almost a year after the exchange proponent acquired the entire property and
     during this time period sales data shows marked increases in the value of lakefront
     property.

5.   The decision to allow Del Webb to furnish the initial appraisal for the federal lands
     involved in the Del Webb land exchange was in full compliance with the provisions of
     the land exchange regulations (43 CFR 2201.3-l). The regulation states that “a qualified
     appraiser may be an employee or a contractor to the Federal or non-Federal exchange
     parties”. On February 2, 1996, the BLM Nevada State Director signed an agreement that
     allowed Del Webb to provide an appraisal report of the selected Federal lands, as
     provided for by 43 CFR 220 1.3- 1. The appraiser was better qualified for this type of
     transaction and appraisal assignment than any pre-qualified appraiser on BLM Nevada’s
     contract list. To the extent that a decision to allow Del Webb to furnish the initial
     appraisal conflicted with a field policy or practice, the decision was fully within the
     discretion of BLM Headquarters’ Officials.

6.   The development approach used by the appraiser for the Del Webb appraisal report was
     prepared according to standards contained in the “Uniform Appraisal Standards for
     Federal Land Acquisitions” (UASFLA). To maintain the independence and integrity of
     the appraiser, the decision to use the development approach is made by the appraiser, not
     the reviewer. The appraiser also included a market approach. He concluded the cost
     development approach was a better indication of value. This is in compliance with



                                            44
                                                                                       APPENDIX 5
                                                                                       Page 9 of 14



                                                                                                     4

      UASFLA that states: “However, if there are no comparable sales, then other methods
      must be resorted to in order to ascertain market value; hence, the courts have allowed the
      use of the developer’s residual approach when comparable sales have been lacking.”

7.    The BLM selected the contract review appraiser to review the initial appraisal report for
      the Del Webb land exchange because they were the best qualified, not because Del Webb
      nominated them. The firm selected was evaluated along with five other potential
      contractors. The contract for the review appraisal was awarded following appropriate
      procurement procedures through the BLM National Business Center (Denver).

8.    We strongly disagree with the concerns expressed in the Advisory Report on the Del
      Webb land exchange and suggestions carried forward in the draft Audit Report that there
      could have been a $9.1 million loss to the Federal government from this exchange. The
      BLM decision to seek a second appraisal resulted in BLM receiving greater value for the
      public lands. This decision supports our position that appropriate management
      safeguards are in place to ensure that the public interests were protected in the processing
      of this exchange. The BLM takes particular issue with the implied criticism that there is
      something inappropriate about elevating decisions on high priority, high visibility and/or
      sensitive issues from a field organization to Headquarters.

9.    The draft Audit Report finds that “there was no discernable mission-related purpose
      documented to reasonably support the acquisition” of three parcels of land in the Sunrise
      Mountain area as part of the Dreyfus/Zephyr Cove exchange. The Bureau concurs with
      the requirement that acquisition of private land must be “consistent’ with existing land
      use plans; however, we disagree that those lands must be specifically identified in the
      plan. While the 1984 Management Framework Plan (MFP) is silent about land
      acquisitions in general, the MFP does identify that the Sunrise Mountain lands are to be
      managed for multiple use with an emphasis on recreation, recognizing existing and future
      intensive recreation use. The preferred alternative in the Draft Resource Management
      Plan (RMP) identifies approximately 37,600 acres in the Sunrise Mountains as an Area of
      Critical Environmental Concern. That same area has also been identified as a Special
      Recreation Management Area. The environmental assessment and decision record for the
      subject land exchange clearly documented the determination of public interest in the
      acquisition of the offered lands adjacent to Sunrise Mountain, as required by 43 CFR
      2200.0-2 and 43 CFR 2200.0-6(b). While it is true that the outdated MFP was silent
      related to acquisitions, that plan and the Draft RMP provide clear documentation that
      Sunrise Mountain contains resources and resource management needs that will benefit the
      public.

10.   The draft Audit Report concludes that Notices of Decision were issued on several land
      exchanges before appraisals and other required analyses were completed. This issue
      involves exchange transactions that predated discussions of the requirements of 43 CFR
      2201.7- 1 with the Department Solicitor in late 1996. The BLM issued a clarification of



                                              45
                                                                                        APPENDIX 5
                                                                                        Page 10 of 14



                                                                                                       5

       Bureau policy by Instruction Memorandum 97-74, dated February 11, 1997. The BLM
       Nevada State Director subsequently provided supplemental guidance that Notices of
       Decision would not be published until all the required reports. including the appraisal, are
       complete and available for public inspection during the comment period.

11.    The draft Audit Report finds that “the Bureau did not provide an adequate and effective
       review of the Forest Service’s negotiation documentation and appraisal review” for the
       Deer Creek exchange and therefore the property was overvalued by $5.9 million. The
       draft Audit Report recognizes that the value for this transaction was reached through a
       bargaining effort by a Forest Service bargaining team. It should be noted that the BLM
       Nevada State Director had officially delegated these appraisal responsibilities to the
       Forest Service in March 1995. The authority to utilize bargaining or another process to
       resolve disputes over value is provided for by Section 3 (a) of the Federal Land Exchange
       Facilitation Act of 1988. The bargaining effort is based on an analysis of appraisal
       reports, assumptions made by the appraisers, the adequacy of market information, and the
       reasonableness of the conclusions of value. The Forest Service bargaining agreement
       clearly considered these factors. Any offer, settlement, or agreed upon value must be
       approved by a management official, which in this case was the BLM Nevada State
       Director, not the State Chief Appraiser. The BLM Nevada State Director accepted the
       negotiated value. The bargaining effort was successful in that the negotiated value was
       some $2 million less than the value asserted by the exchange proponent.

12.    The delegation of authority for appraisal review was changed by Instruction
       Memorandum No. 97- 113 to improve management oversight of the appraisal process.
       The new delegation allows the State Director to re-delegate authority for approving
       market value to the State Office Chief Appraiser or other qualified appraisers. There are
       practical reasons for relying on reviewers other than the State Chief Appraiser. The State
       Chief Appraiser may have workload conflicts or may not have the expertise necessary to
       review an appraisal involving a unique or specialized property. The manager may also
       disqualify the appraiser if there is a potential conflict of interest or they do not perceive
       the reviewer as impartial and objective in conducting the review. However, BLM
       managers are ultimately responsible for the integrity of the agency’s decision-making
       process, including the adequacy of the appraisal support.

Recommendation B. 1: The accounting reports of income and expenditures required by
Section 2(e) of the Santini-Burton Act are prepared and submitted to Bureau headquarters
for submission to the appropriate Congressional oversight committees.

The draft Audit Report considers this recommendation implemented. We concur.

Recommendation B. 2: The Nevada State Office uses the land sales process, except in
compelling circumstances, when disposing of its Santini-Burton Act lands until the sales
revenues generated closely approximate the Lake Tahoe Basin acquisition costs. Any



                                               46
                                                                                         APPENDIX 5
                                                                                         Page 11 of 14



                                                                                                    6

exchange proposals from that time should be closely monitored to ensure that the exchange
is justified and that the costs incurred as a result of the Santini-Burton Act remain
relatively nominal.

The draft Audit Report considers this recommendation implemented. We concur.

Recommendations Included in the Draft Audit Report

Recommendation 1: Identify the Bureau’s entire land exchange program as a material
weakness in the Department’s Annual Accountability Report.

Response: We agree. Although the events surrounding the BLM land exchange program in
Nevada are unique, there is a likelihood that similar management and staffing issues may occur
in other BLM State Offices. We will conduct follow-up reviews in other BLM State and field
offices during FY 1999.

Recommendation 2: Establish a “land exchange review team” that includes representatives
who are non-Bureau personnel. This team should provide advice concerning compliance
with established laws, regulations, and procedures for all significant land exchanges before
lands are acquired or disposed of through an exchange. Also, team members should
possess the technical skills and proficiency, including a thorough knowledge of the
appraisal process and the applicable appraisal standards, required to conduct an effective
review of proposed exchanges.

Response: We agree there should be increased management oversight of the land exchange
program. The BLM is taking steps to improve management of the land exchange workload and
assure the availability of adequately trained and experienced lands and real estate appraisal staffs.
This effort is occurring at the State Office and field levels.

We will evaluate the “land exchange review team” proposal along with other options. However,
we are unwilling to make a specific commitment at this time on the possible roles,
responsibilities or organization of a review team. We believe there are a variety of options
available to improve compliance with agency standards and ensure effective internal control.

Recommendation 3: Establish a moratorium on land exchanges in the State of Nevada
pending establishment of the independent land exchange review team identified in
Recommendation 2.

Response: We disagree. There is currently a limited moratorium on new land exchanges in the




                                               47
                                                                                       APPENDIX 5
                                                                                       Page 12 of 14



                                                                                                     7

Las Vegas area. Imposing a full moratorium on land exchanges currently in process would likely
create a financial hardship for the exchange proponents and generate further distrust.

We will continue the existing limited moratorium until we are assured that the BLM Nevada
State Office and the Las Vegas Field Office have the management oversight, adequate staff, and
procedures necessary to assure compliance with Bureau policies. In addition the Washington
Office has established procedures for the oversight and review of all decision actions for land
exchanges in excess of $500,000 in value.

Recommendation 4: Ensure that appraisals are supported by credible evidence, as
required by the “Uniform Appraisal Standards for Federal Land Acquisitions,” when the
appraised value is based on an assertion that the property’s highest and best use is
different from its current zoning or use.

Response: We agree. BLM State Chief Appraisers are responsible for assuring that appraisal
reports meet agency standards. The regulations (43 CFR 2200.0-5) define highest and best use
as the most probable legal use of the property, based on market evidence as of the date of
valuation, expressed in an appraiser’s supported opinion. The appraisal report is also required to
include information regarding the zoning, current use, and an analysis of highest and best use (43
CFR 2201.3-3 (d)).

BLM will coordinate development of an appraisal course to be presented to BLM appraisers,
contract appraisers, and other agency appraisers involved in land exchange appraisals. The
course will be developed and presented by the Appraisal Institute and the American Society of
Farm Managers and Rural Appraisers. The course will focus on highest and best use, how to
document “reasonable probability,” and improving the effectiveness of the appraisal review
function. The course is tentatively scheduled to be presented during FY 1999.

Appraisal reports on lands with a high value will be checked at the BLM State Office level to
ensure that there is sufficient documentation supporting a highest and best use different from its
current use. Follow-up reviews will be conducted by the Washington Office during FY 1999.

Recommendation 5: Revise the Land Exchange Handbook and Instruction Memorandum
97-113 to ensure that all appraisal reports used in a land exchange are reviewed and
approved by the State Chief Appraiser and to ensure that the described procedures for
dispute resolution are consistent with the requirements of the Federal Land Policy and
Management Act of 1976, as amended, and the Code of Federal Regulations (43 CFR 2200).

Response: This recommendation includes two elements: one involves appraisal review and the
other “bargaining.”




                                                 48
                                                                                  APPENDIX 5
                                                                                  Page 13 of 14



                                                                                                   8

bnraisal Review

We disagree with the recommendation requiring the State Chief Appraiser to review and approve
all appraisal reports. The current delegation of authority allows the State Director to re-delegate
authority for approving market value to the State Office Chief Appraiser or other qualified
review appraisers. This is a practical way to handle appraisal review workload and is also
consistent with 43 CFR 220 1.3- 1 (a), which states:

       A qualified appraiser may be an employee or a contractor to the Federal or non-Federal
       exchange parties. At a minimum, a qualified appraiser shall be an individual, approved
       by the authorized officer, who is competent, reputable, impartial, and has training and
       experience in appraising property similar to the property involved in the appraisal
       assignment.



The reviewer must also be qualified, as required by 43 CFR 2201.3-4, which states:

       Appraisal reports shall be reviewed by a qualified review appraiser meeting the
       qualification set forth in Section 220 1.3- 1 of this part.

State Directors are responsible for administration of the appraisal function consistent with
applicable laws and policies. They usually assign responsibility for the day-to-day operation to
the State Chief Appraiser. Duties include contracting for appraisal services, monitoring
performance, recommending payment of invoices, conducting appraisal reviews, supervising a
staff, and serving as an advisor to the State Director and field managers. There are practical
reasons for relying on reviewers other than the State Chief Appraiser. The State Chief Appraiser
may have workload conflicts or may not have the expertise necessary to review an appraisal
involving a unique or specialized property, e.g., timber or minerals. The manager may also
disqualify the appraiser if there is a potential conflict of interest or they do not perceive the
reviewer as impartial and objective in conducting the review. The BLM New Mexico State
Office does not have a State Chief Appraiser and as a result the BLM Arizona State Office
provides services.

BLM does not expect the State Directors or field office managers to be trained and qualified
appraisers. Their responsibility, however, is to obtain the necessary resources that will enable
them to make sound, justified, and reasonable decisions. Regardless, the BLM Land Exchange
Manual makes it clear that the decision to accept the review report and approve the appraised
value is a BLM decision that cannot be delegated outside the agency. BLM must explain and
support a decision to accept an appraisal report or a review report prepared by another agency.




                                              49
                                                                                     APPENDIX 5
                                                                                     Page 14 of 14



                                                                                                   9

Bargaining

BLM also disagrees with the recommendation regarding “bargaining”.

The Federal Land Exchange Facilitation Act (P.L. 100-409) has language allowing the agency to
use bargaining or another process to decide value. Land exchanges are voluntary transactions
requiring agreement among the parties. It would not always be possible to get the parties to
accept conclusions of the appraiser. Therefore, it is unrealistic to believe the agency can always
impose their opinion of value on the property owner. 43 CFR 2201.4(a)( 1) states:

       Instead of submitting the appraisal to an arbitrator, as provided in paragraph (2) of this
       section, the Secretary concerned and the other party or parties involved in an exchange
       may mutually agree to employ a process of bargaining or some other process to determine
       the values of the properties involved in the exchange.

The regulation in 43 CFR 2200.0-5(h) includes the following definition:

       Bargaining means a process, other than arbitration, by which parties attempt to resolve a
       dispute concerning the appraised value of the land involved in an exchange.

It was intended that bargaining be a process for reaching agreement on the assumptions and
conclusions in the appraisal report. BLM will always obtain an appraisal for the lands involved
in an exchange, then use bargaining only if necessary to resolve a dispute over value. However,
negotiations or other methods may even be used when bargaining is unsuccessful. 43 CFR
220 1.4(a)( 1) states:

       If the parties cannot agree on the appraised values, they may agree to initiate a process of
       bargaining or some other nrocess (emphasis added) to resolve the dispute over values.

This is consistent with Government-wide regulations in 49 CFR 24.102(I) implementing the
Uniform Relocation and Real Property Acquisition Policies Act of 1970. as amended (42 U.S.C.
4601 et.seq.). The regulation states:

       Administrative settlement: The purchase price for the property may exceed the amount
       offered as just compensation when reasonable efforts to negotiate an agreement at the
       amount have failed and an authorized Agency official approves such administrative
       settlement as being reasonable, prudent, and in the public interest.




                                             50
                                                                        APPENDIX 6

           STATUS OF AUDIT REPORT RECOMMENDATIONS


    Finding/
Recommendation
   Reference            Status                        Action Required

   1,4, and 5    Resolved; not         No further response to the Office of Inspector
                 implemented.          General is required. The recommendations
                                       will be referred to the Assistant Secretary for
                                       Policy, Management and Budget for tracking
                                       of implementation.

       2         Management            Provide a plan for ensuring non-Bureau
                 concurs; additional   representation on the proposed National Land
                 information needed.   Exchange Evaluation and Assistance Team.
                                       In addition, the following information should
                                       be provided: the Team’s charter showing the
                                       specific authorities and responsibilities given
                                       to the Team, including information on the
                                       criteria by which the Bureau will determine
                                       which exchanges will be referred to the Team
                                       for review, and the membership of the Team,
                                       including information on the qualifications of
                                       non-Bureau members.

       3         Unresolved.           Reconsider the recommendation, and
                                       establish a temporary moratorium on new
                                       and/or expanded Nevada land exchange
                                       activity until a National Land Exchange
                                       Evaluation and Assistance Team that
                                       includes non-Bureau representation is
                                       established and available to assist the
                                       Bureau’s Nevada State Director.




                                       51
               ILLEGAL OR WASTEFUL ACTIVITIES
                   SHOULD BE REPORTED TO
             THE OFFICE OF INSPECTOR GENERAL BY:

Sending written documents to:                                  Calling :



                     Within the Continental United States

U.S. Department of the Interior                       Our 24-hour
Office of Inspector General                           Telephone HOTLINE
1849 C Street, N.W.                                   l-800-424-508 1 or
Mail Stop 5341                                        (202) 208-5300
Washington, D. C. 20240


                                                      TDD for hearing impaired
                                                      (202) 2082420 or
                                                      l-800-354-0996


                     Outside the Continental United States

                                     Caribbean Retion

U.S. Department of the Interior                       (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22201

                                    North Pacific Retion

U.S. Department of the Interior                       (67 1) 647-605 1
Office of Inspector General
North Pacific Region
4 15 Chalan San Antonio
Baltej Pavilion, Suite 306
Tamuning, Guam 96911
Toll Free Numbers:
 l-800-424-5081           1
 TDD l-800-354-0996       5
                          5
                          5
FIS/CommerciaI Numbers:
 (202) 208-5300
 TDD (202) 208-2420       E

 HOTLINE Ei.
1849 C Street, N.W.
MailStop 5341
                          c
Washington. D.C. 20240
